<html>
<title> - UPDATE ON THE RESTORATION OF PUERTO RICO'S ELECTRIC INFRASTRUCTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








   UPDATE ON THE RESTORATION OF PUERTO RICO'S ELECTRIC INFRASTRUCTURE
=======================================================================

                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON OVERSIGHT AND INVESTIGATIONS

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

                           Serial No. 115-115






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]













      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
31-134                    WASHINGTON : 2019                 






















                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina

              Subcommittee on Oversight and Investigations

                       GREGG HARPER, Mississippi
                                 Chairman
H. MORGAN GRIFFITH, Virginia         DIANA DeGETTE, Colorado
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JANICE D. SCHAKOWSKY, Illinois
MICHAEL C. BURGESS, Texas            KATHY CASTOR, Florida
SUSAN W. BROOKS, Indiana             PAUL TONKO, New York
CHRIS COLLINS, New York              YVETTE D. CLARKE, New York
TIM WALBERG, Michigan                RAUL RUIZ, California
MIMI WALTERS, California             SCOTT H. PETERS, California
RYAN A. COSTELLO, Pennsylvania       FRANK PALLONE, Jr., New Jersey (ex 
EARL L. ``BUDDY'' CARTER, Georgia        officio)
GREG WALDEN, Oregon (ex officio)














  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Gregg Harper, a Representative in Congress from the State of 
  Mississippi, opening statement.................................     1
    Prepared statement...........................................     3
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, prepared statement.....................................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     8

                               Witnesses

Jeffrey Byard, Associate Administrator, Office of Response and 
  Recovery, Federal Emergency Management Agency..................     9
    Prepared statement...........................................    12
    Answers to submitted questions...............................    93
Charles R. Alexander, Jr., Director, Contingency Operations and 
  Homeland Security Headquarters, Army Corps of Engineers........    19
    Prepared statement...........................................    21
    Answers to submitted questions...............................   113
Bruce J. Walker, Assistant Secretary, Office of Electricity 
  Delivery and Energy Reliability, Department of Energy..........    26
    Prepared statement...........................................    29
    Answers to submitted questions...............................   117
Carlos D. Torres, Power Restoration Coordinator, Edison Electric 
  Institute......................................................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   123
Gene Shlatz, Director, Navigant Consulting.......................    67
    Prepared statement...........................................    69
    Answers to submitted questions...............................   130

                           Submitted material

Committee memorandum.............................................    85

 
   UPDATE ON THE RESTORATION OF PUERTO RICO'S ELECTRIC INFRASTRUCTURE

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018

                  House of Representatives,
      Subcommittee on Oversight and Investigations,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 3:11 p.m., in 
room 2322, Rayburn House Office Building, Hon. Gregg Harper 
(chairman of the subcommittee) presiding.
    Present: Representatives Harper, Griffith, Brooks, Collins, 
Walberg, Costello, Carter, Walden (ex officio), DeGette, 
Schakowsky, Castor, Tonko, Ruiz, and Pallone (ex officio).
    Staff Present: Jennifer Barblan, Chief Counsel, O&I; Kelly 
Collins, Legislative Clerk, Energy/Environment; Lamar Echols, 
Counsel, O&I; Adam Fromm, Director of Outreach and Coalitions; 
Ali Fulling, Legislative Clerk, O&I, DCCP; John Ohly, 
Professional Staff, O&I; Dan Schneider, Press Secretary; Austin 
Stonebraker, Press Assistant; Christina Calce, Minority 
Counsel; Jeff Carroll, Minority Staff Director; Tiffany 
Guarascio, Minority Deputy Staff Director and Chief Health 
Advisor; Rick Kessler, Minority Senior Advisor and Staff 
Director, Energy and Environment; Miles Lichtman, Minority 
Policy Analyst; Perry Lusk, Minority GAO Detailee; Jon Monger, 
Minority Counsel; and C.J. Young, Minority Press Secretary.

  OPENING STATEMENT OF HON. GREGG HARPER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Harper. The subcommittee convenes the hearing today 
entitled ``Update on the Restoration of Puerto Rico's Electric 
Infrastructure.''
    In September of 2017, Puerto Rico was hit by two 
unprecedented hurricanes in a 2-week period. On September the 
6th, Hurricane Irma struck the island as a Category 5. Over 1 
million residents lost power. While still recovering, Hurricane 
Maria ravaged the island on September the 20th, 2017. 1.47 
million customers lost power as the storm brought 150-mile-per-
hour winds and 25 inches of rain to the island. Regrettably, 
many Americans lost their lives while others went months 
without access to potable water or electricity. Over 50,000 
residents still don't have power today.
    On behalf of the committee, I want the citizens of Puerto 
Rico to know that our thoughts are with you as recovery efforts 
continue. This committee will continue working to ensure that 
everyone in Puerto Rico has access to clean drinking water, 
healthcare, reliable telecommunications, and, of course, 
electricity. Today, we look forward to hearing about ideas that 
could prevent another prolonged loss of power like Puerto Rico 
is experiencing from happening again.
    I am pleased that we are joined here today by 
Representative Jenniffer Gonzalez-Colon from Puerto Rico. She 
has been a tireless advocate for Puerto Rico and has been on 
the front lines of hurricane recovery efforts since the very 
beginning. And I thank you for being with us today on this very 
important hearing.
    I also want to thank Chairman Walden for his leadership on 
hurricane recovery issues, including holding multiple hearings 
and organizing a bipartisan group of Members to visit Puerto 
Rico last December to see the damage and challenges facing the 
island.
    The recovery of Puerto Rico's electric infrastructure has 
been a challenge for a variety of reasons including 
bureaucratic issues, geographic isolation from responders and 
crews, difficult mountainous terrain, supply issues, and 
limitations of the existing electric infrastructure.
    In the aftermath of the storm, the Puerto Rico Electric 
Power Authority, or PREPA, chose not to request mutual 
assistance from other utilities and instead relied on 
contractors to restore the grid. After the Governor of Puerto 
Rico requested the Federal Government to provide assistance in 
late September, FEMA tasked the U.S. Army Corps of Engineers 
with restoring the island's power.
    Rebuilding an electric grid is not a mission typically 
undertaken by the agency. Yet the Army Corps has used its 
expertise to spearhead rebuilding efforts by hiring contractors 
and providing logistic support. On October the 31st, 2017, 
PREPA finally requested mutual assistance. But lacking existing 
assistance agreements, crews did not arrive until earlier this 
year.
    Currently, restoration is coordinated by the unified 
command of FEMA, the Army Corps, PREPA, and a power restoration 
coordinator who is joining our second panel today. The Army 
Corps of Engineers' mission assignment, to rebuild the 
electrical grid ends on May the 18th of 2018. As of last week, 
power had been restored for 96.6 percent of customers.
    The remaining work to be done, sometimes referred to as the 
last mile, is the difficult mountainous region often requiring 
the use of a helicopter to access work sites. We look forward 
to hearing from our witnesses today about what it will take to 
get 100 percent of the customers back online.
    One of the goals of this hearing is to explore the future 
of Puerto Rico's electrical grid. How do we prevent another 
sustained loss of power? The tragic circumstances in Puerto 
Rico provide us with an opportunity to build an electrical grid 
that is more reliable and able to withstand future storms. The 
Department of Energy will play a key role developing this plan 
moving forward, and we are eager to learn more from DOE about 
how the role of Federal agencies will shift during the 
rebuilding phase of operations.
    Finally, we look forward to hearing more about the report 
entitled ``Build Back Better: Reimagining and Strengthening the 
Power Grid of Puerto Rico.'' Written by numerous organizations 
from both the private and public sector, including Navigant 
Consulting, who is joining us today, the report provides a 
detailed plan on how to establish an electrical grade in Puerto 
Rico that withstands Category 4 hurricanes at an estimated cost 
of $17 billion.
    I welcome and thank the witnesses and look forward to your 
testimony.
    I now yield to the ranking member from Colorado, Ms. 
DeGette.
    [The prepared statement of Mr. Harper follows:]

                Prepared statement of Hon. Gregg Harper

    The Subcommittee convenes this hearing today entitled 
``Update on the Restoration of Puerto Rico's Electric 
Infrastructure.''
    In September 2017, Puerto Rico was hit by two unprecedented 
hurricanes in a two-week period. On September 6, Hurricane Irma 
struck the island as a Category Five storm. Over 1 million 
residents lost power. While still recovering, Hurricane Maria 
ravaged the island on September 20, 2017. 1.47 million 
customers lost power as the storm brought 150 mile per hour 
winds and 25 inches of rain to the island. Regrettably, many 
Americans lost their lives while others went months without 
access to potable water or electricity. Over 50,000 residents 
still don't have power today.
    On behalf of the Committee, I want the citizens of Puerto 
Rico to know that our thoughts are with you as recovery efforts 
continue. This Committee will continue working to ensure that 
everyone in Puerto Rico has access to clean drinking water, 
healthcare, reliable telecommunications, and electricity. 
Today, we look forward to hearing about ideas that could 
prevent another prolonged lossof power like Puerto Rico is 
experiencing from happening again.
    I am pleased that we are joined here today by 
Representative Jenniffer Gonz lez-Col centsn from Puerto Rico. 
She has been a tireless advocate for Puerto Rico and has been 
on the front lines of hurricane recovery efforts since day one. 
Thank you for being here with us for this important hearing.
    I also want to thank Chairman Walden for his leadership on 
hurricane recovery issues, including holding multiple hearings 
and organizing a bipartisan group of members to visit Puerto 
Rico last December to see the damage and challenges facing the 
island.
    The recovery of Puerto Rico's electrical infrastructure has 
been a challenge for a variety of reasons, including 
bureaucratic issues, geographic isolation from responders and 
crews, difficult mountainous terrain, supply issues, and 
limitations of the existing electric infrastructure.
    In the aftermath of the storms, the Puerto Rico Electric 
Power Authority, or PREPA, chose not to request mutual 
assistance from other utilities and instead relied on 
contractors to restore the grid. After the Governor of Puerto 
Rico requested the federal government to provide assistance, in 
late September FEMA tasked the U.S. Army Corps of Engineers 
with restoring the island's power.
    Rebuilding an electrical grid is not a mission typically 
undertaken by the agency-yet the Army Corps has used its 
expertise to spearhead rebuilding efforts by hiring contractors 
and providing logistic support. On October 31, 2017, PREPA 
finally requested mutual assistance, but lacking existing 
assistance agreements, crews did not arrive until earlier this 
year.
    Currently, restoration is coordinated by the unified 
command of FEMA, the Army Corps, PREPA, and a Power Restoration 
Coordinator who is joining our second panel today. The Army 
Corps of Engineers' mission assignment to rebuild the 
electrical grid ends on May 18, 2018. As of last week, power 
has been restored for 96.6% of customers.
    The remaining work to be done-sometimes referred to as the 
last mile--is in the difficult mountainous region, often 
requiring the use of a helicopter to access work sites. We look 
forward to hearing from our witnesses today about what it will 
take to get 100% of customers back online.
    One of the goals of this hearing is to explore the future 
of Puerto Rico's electrical grid. How do we prevent another 
sustained loss of power? The tragic circumstances in Puerto 
Rico provide us with an opportunity to build an electrical grid 
that is more reliable and able to withstand future storms. The 
Department of Energy will play a key role developing this plan 
moving forward and we are eager to learn more from DOE about 
how the role of federal agencies will shift during the 
rebuilding phase of operations.
    Finally, we look forward to hearing more about the report 
entitled Build Back Better: Reimagining and Strengthening the 
Power Grid of Puerto Rico. Written by numerous organizations 
from both the private and public sector, including Navigant 
Consulting who is joining us today, the report provides a 
detailed plan on how to establish an electrical grid in Puerto 
Rico that withstands Category Four hurricanes at an estimated 
cost of 17 billion dollars.
    I welcome and thank the witnesses, and look forward to 
their testimony. I now yield to the Ranking Member from 
Colorado, Ms. DeGette.

    Ms. DeGette. Thanks, Mr. Chairman.
    Mr. Chairman, as you noted, the 2017 hurricane season was 
one of the most damaging on record for the United States and 
Puerto Rico and the U.S. Virgin Islands. Those two entities 
continue to reel from the catastrophic impact of Hurricanes 
Irma and Maria. I was part of that group that went to Puerto 
Rico and the U.S. Virgin Islands with Chairman Walden and 
Ranking Member Pallone in December very soon after the storm. 
And it is one thing to talk about the effects of the blackout 
and everything else. It is something else to actually go there 
and to talk to the people who are impacted by it every day. And 
the long-term crisis that has been caused by this--we just 
can't overestimate the impact. We have to have a reliable grid. 
It is fundamental to Puerto Rico's economy and all aspects of 
life on the island. They can't keep their businesses going. 
They can't keep their homes going if they don't have a reliable 
grid.
    And even today, months later, with the new hurricane season 
starting in just a few weeks, thousands of people still don't 
have power today, more than 6 months after Hurricane Maria made 
landfall. And I still have concerns about the response, 
including the awarding of questionable contracts may have 
impeded or slowed down the response effort. We need to find out 
what we can do better. We have got to have a strong and 
effective Federal Government. We have got to have strong 
Federal leadership and commitment, not just to address the 
impending objectives but also the longer term recovery, 
including grid design and rebuilding efforts.
    So I am hoping that our two panels today can help explain 
why it has taken so long to restore power in Puerto Rico, which 
is actually in charge of restoration efforts, both now and 
going forward, and critically, as you mentioned, Mr. Chairman, 
what it is going to take to build a 21st century grid that will 
help prevent Puerto Rico from suffering another devastating 
blackout in the future.
    It appears to me that there is little effort being made to 
modernize the grid or otherwise increase its resilience as part 
of the restoration process that has been completed to date. 
FEMA's Federal coordinating officer in Puerto Rico actually 
described the restoration efforts as a ``Band-Aid'' and said 
that the system has ``been patched back together.'' And that 
was sort of my impression when I was in Puerto Rico.
    This situation does not call for a Band-Aid, but it 
requires building of a stronger and much more resilient grid. 
And when we were in Puerto Rico and also the U.S. Virgin 
Islands, we were talking together, as members of the delegation 
on both sides of the aisle, about what we can do to deal with 
Stafford Act requirements and how we need to go much further 
than those requirements in order to ensure a strong grid going 
forward. Because with projections for severe weather incidents 
coming up more and more, what we are going to be seeing, if we 
don't rebuild to a higher degree and to resilience, we are 
going to be seeing a repeat of this over and over again. So we 
need to make sure that whatever grid we put into place won't be 
vulnerable to future storms.
    We are a long way from that goal, as I said. Even where 
power has been restored, service remains unreliable, and 
blackouts and service outages continue to affect hundreds of 
thousands of people. Businesses and facilities like hospitals, 
police stations, and water treatment facilities have generators 
on hand simply to ensure that, if the grid goes out, that they 
can continue to provide services. I am also concerned because 
many Federal contractors have already left Puerto Rico or will 
be leaving in the near future despite the fact so much remains 
to be done.
    Now, the U.S. Army Corps of Engineers did recently announce 
they will be in Puerto Rico until May 18, but many contractors 
are leaving. I would like to know how that is going to impact 
our ability to restore power to everybody.
    So, Mr. Chairman, building a grid for the 21st century is 
going to require significant resources and a strong and ongoing 
commitment by this committee and the full committee. As we 
consider innovative ways to rebuild the grid, we have got to 
ensure that the process is transparent, and we also have to 
include consumer protections. Mr. Chairman, we need to have 
ongoing oversight over this. We need to keep it on our radar 
screen. And I think we should even consider, as it goes along, 
having field hearings in Puerto Rico and the U.S. Virgin 
Islands to see how this is happening.
    I want to finish by just also thanking Representative 
Gonzalez-Colon who is here with us today and was there with us 
in Puerto Rico. I also want to thank Representative Plaskett 
who was with us in the U.S. Virgin Islands. And I want to thank 
Representative Nydia Velazquez, who has been a real champion 
for full remediation of all of these issues.
    With that, Mr. Chairman, I yield back and look forward to 
hearing from our witnesses.
    Thanks.
    Mr. Harper. The gentlewoman yields back.
    I would ask unanimous consent that Chairman Walden's 
opening statement be made a part of the record and any other 
members' written openings also be made a part of the record.
    Without objection, it will be so entered.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Last year, three powerful hurricanes--Harvey, Irma and 
Maria--wrought devastation across the Caribbean and southern 
United States. Between August and September, these storms left 
millions without power, dumped unimaginable rainfall and tested 
the capabilities and resolve of our local, state and national 
response functions.
    Months later, many of our citizens--especially in hard hit 
communities like Texas, Florida and the U.S. Virgin Islands--
continue to recover from the damage inflicted by these storms. 
In one U.S. territory, however, that road remains particularly 
long and challenging.
    The island of Puerto Rico was still recovering from 
Hurricane Irma when it received a direct hit from Hurricane 
Maria. The massive Category Four storm made landfall on the 
southeastern coast of the island. Winds exceeding 150 miles per 
hour were fueled by the island's terrain, leveling structures 
and leaving large swaths of lush forests brown and barren. As 
it traversed the mountainous interior, torrential rain rushed 
down steep hillsides where it met storm surge from the coast, 
creating substantial flooding. When the storm exited the 
northwest coast, it had been felt in all corners of the island.
    The damage touched every aspect of life in Puerto Rico. 
Roads were impassable, bridges washed away, communications 
lost. Recovery was going to be long, even under good 
circumstances. The circumstances were not good in the 
effectively-bankrupt Commonwealth. And nowhere has this been 
more apparent than the storm's effect on the island's fragile 
electric infrastructure.
    In Maria's wake, most of the nearly 3.4 million citizens of 
Puerto Rico were in the dark. The storm's high winds and 
flooding ravaged the aging and poorly maintained infrastructure 
of the island's public utility, the Puerto Rico Electric Power 
Authority (PREPA). Already nine billion dollars in debt, PREPA 
did little to upgrade or maintain the system as it struggled to 
provide reliable power to the island's residents and 
businesses. Transmission lines traversed steep mountains, 
surrounded by dense vegetation, with little set-back or right 
of way. Antiquated distribution stations remained situated in 
areas prone to flooding. These and other factors exacerbated 
the damage--and recovery.
    Restoration efforts took time to gain momentum. A 
combination of questionable actions by PREPA, an unorthodox 
assignment for the U.S. Army Corps, geographical and logistical 
challenges, and other factors slowed the response. Over time, 
many of these challenges were overcome and, at its peak, the 
restoration involved the coordination of more than 6000 
workers. Despite these efforts, over 6 months later more than 
sixty thousand citizens remain without power.
    Going without power for more than 6 months is difficult to 
imagine for most of us. An outage lasting more than a week--
such as Sandy or the 2012 Derecho here in DC--is rare. Two 
weeks after Maria, Puerto Rico was only scratching the surface.
    Last December, members from this committee visited Puerto 
Rico and the U.S. Virgin Islands. It is one thing to read or 
hear about the damage but--until you see it in person, speak to 
the people on the ground--it is hard to appreciate just how 
devastating and far reaching the effects are on these 
communities. I learned a lot from that experience, but one 
thing stood out--the patience and fortitude of the citizens. If 
PREPA's grid had a fraction of the resilience demonstrated by 
Puerto Ricans over the past 6 months, we would be in a much 
different place.
    We cannot change the past, but we can learn from it to 
create a brighter future. I look forward to learning more from 
our witnesses about why this has been such a challenge, what it 
will take to complete the ``last mile,'' and how we prevent 
such a protracted outage in the future. This last part is 
critical. Hurricane season is fast approaching, and the 
existing system is still being repaired. Hundreds of emergency 
generators remain in use or as backup at critical facilities 
due to the fragility of the system. What is being done to 
strengthen the system and improve our response in the event of 
another storm?
    Ultimately, Puerto Rico needs a more robust and resilient 
electric infrastructure. This will be a complex, multi-faceted 
endeavor that is bigger than any one technology, generation 
source or institutional question--such as who owns and operates 
the infrastructure. I look forward to learning more about what 
is necessary to get this right for the people and long-term 
prosperity of Puerto Rico.

    Mr. Harper. The chair will now recognize Ranking Member 
Pallone for any opening statement that he may have.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    It is time we begin to find a commonsense solution for 
creating a 21st century electric grid for Puerto Rico. And as 
our ranking member, Ms. DeGette, said, we witnessed the 
unprecedented destruction of the 2017 hurricane season when we 
traveled to Puerto Rico and the Virgin Islands with the 
committee. And I also want to thank Congresswoman Jenniffer 
Gonzalez, first of all, for her hospitality, which was 
overwhelming, but even more important for her insight, because 
without her practical insight, I don't think we would have 
really understood what was going on and what we needed to do.
    On our trip, we saw the massive devastation to all aspects 
of life on the islands, including widespread damage to the 
electric grid in Puerto Rico, which, in the immediate aftermath 
of the storms, brought to a standstill any semblance of normal 
life or commerce on the island. And responding to the 
unprecedented level of devastation caused by these storms I 
think would have been beyond the capacity of any State, 
territory, or local government. And quick decisive Federal 
assistance and leadership was required to address immediate 
response needs. However, I think the people of Puerto Rico 
received a visit where the President, as I saw on TV, tossed 
some paper towels into the crowd and sent tweets that suggested 
a lack of commitment by him to the response effort. And I do 
criticize the Trump administration, because I do think they 
should have done more to ensure that those who remain without 
power in Puerto Rico over 6 months after Hurricanes Irma and 
Maria made landfall, that power should be restored as soon as 
possible. And this administration isn't doing enough.
    I am also concerned that questionable contracts and 
contracting practices may have delayed or undermined the 
response effort. While restoring power quickly is the most 
urgent concern, significant improvements to Puerto Rico's 
electrical infrastructure will be needed to build the resilient 
and modernized grid in the wake of both hurricanes. And 
replacing--I want to stress this--replacing the old grid as it 
stood before the storms is going to cost a lot of money and do 
nothing to make electricity in Puerto Rico more reliable or 
affordable. There are going to be major storms in the future, 
and this old grid is simply not up to the task of withstanding 
these storms. So we may have a disagreement over technical 
strategies for building a more reliable and resilient grid, but 
I think that it has to be done. And hopefully this hearing will 
shed some light on how to do it so we are not relying or trying 
to restore the old grid.
    I also have serious concerns about how PREPA oversaw the 
effort to restore power in Puerto Rico but also regarding how 
PREPA has managed or, more accurately, mismanaged the grid in 
Puerto Rico over the years. Even before last year's hurricanes, 
PREPA was $9 billion in debt, the electric grid was outdated, 
and customers on the island paid some of the highest 
electricity prices in the country. So, as we consider ideas for 
strengthening Puerto Rico's grid, we must contemplate 
alternatives to PREPA for overseeing the rebuilding and 
operation. All ideas from direct privatization to creation of a 
new Federal power, marketing administration, and all proposals 
in between should be considered.
    So, whatever road we go down, building a grid for the 21st 
century will require collaboration with the Puerto Rican 
Government and the people as well as a sustained Federal 
commitment that extends beyond the completion of current power 
restoration efforts. And I pledge my support for that kind of a 
Federal commitment and hope that the witnesses will give us a 
better idea of how we can create a truly modernized grid, 
because that is what we need.
    I yield back.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Mr. Chairman, it is time we begin to on finding a common-
sense solution for creating a 21st century electric grid for 
Puerto Rico.
    I witnessed the unprecedented destruction of the 2017 
hurricane season, traveling to the U.S. Virgin Islands and 
Puerto Rico with Chairman Walden, Ms. DeGette, and other 
members of this Committee.
    We saw the massive devastation to all aspects of life on 
the islands, including widespread damage to the electric grid 
which, in the immediate aftermath of the storms, brought to a 
standstill any semblance of normal life or commerce on the 
island.
    Responding to the unprecedented level of devastation caused 
by these storms would have been beyond the capacity of any 
State, territorial, or local government. Quick, decisive 
federal assistance and leadership was required to address 
immediate response needs.
    Instead, the people of Puerto Rico received a visit where 
the President tossed paper towels into the crowd and sent 
tweets that suggested a lack of commitment to the response 
effort.
    The Trump Administration can and should be doing more to 
ensure that those who remain without power in Puerto Rico--over 
6 months after Hurricanes Irma and Maria made landfall--have 
their power restored as soon as possible.
    Additionally, I am concerned that questionable contracts 
and contracting practices may have delayed or undermined the 
response effort.
    While restoring power quickly is the most urgent concern, 
significant improvements to Puerto Rico's electrical 
infrastructure will be needed to build a resilient and 
modernized grid in the wake of Hurricanes Irma and Maria. 
Replacing the old grid as it stood before the storms will cost 
taxpayers more money, and do nothing to make electricity in 
Puerto Rico more reliable or affordable. There will be more 
major storms in the future, and this old grid is simply not up 
to the task of withstanding those storms.
    While many experts agree on the technical strategies for 
building a more reliable and resilient grid, significant 
uncertainty exists as to how to implement the needed 
improvements given the financial and management problems of 
Puerto Rico's electric utility, PREPA.
    I have serious concerns not only about how PREPA has 
overseen the effort to restore power in Puerto Rico, but also 
regarding how PREPA has managed--or more accurately, 
mismanaged--the grid in Puerto Rico over the years.
    Even before last year's hurricanes, PREPA was $9 billion in 
debt, the electric grid was outdated, and customers in Puerto 
Rico paid some of the highest electricity prices in the 
country.
    As we consider ideas for strengthening Puerto Rico's grid, 
we must contemplate alternatives to PREPA for overseeing the 
rebuilding and operation of the grid. All ideas, from direct 
privatization to creation of a new, federal power marketing 
administration--and all proposals in between--should be 
considered.
    Whatever road we go down, building a grid for the 21st 
century in Puerto Rico will require collaboration with the 
Puerto Rican government and the people, as well as a sustained 
federal commitment that extends beyond the completion of 
current power restoration efforts.
    I look forward to hearing from our witnesses today about 
strategies for creating a truly modernized grid and what will 
be needed to implement these ideas. Thank you.

    Mr. Harper. The gentleman yields back.
    Additionally, we also welcome non-Energy and Commerce 
Committee members who are with us today. Pursuant to House 
rules, Members not on the committee are able to attend our 
hearings but cannot ask questions.
    We want to thank all of our witnesses for being here today 
and taking the time to testify before the subcommittee. Today's 
witnesses will have the opportunity to give 5-minute opening 
statements followed by a round of questions from members. Our 
first panel today for today's hearing includes Mr. Jeffrey 
Byard, Associate Administrator for the Office of Response and 
Recovery at FEMA; Mr. Charles Alexander, Director of 
Contingency Operations and Homeland Security for the U.S. Army 
Corps of Engineers; and the Honorable Bruce Walker, Assistant 
Secretary of the Office of Electricity Delivery and Energy 
Reliability at the Department of Energy. I don't know how you 
put that on a business card, but thank you all for being here.
    This is very important, and thank you for providing the 
testimony. We look forward to a very important update on your 
continued efforts in Puerto Rico. And you are each aware that 
this committee is holding an investigative hearing. And when so 
doing, it has been our practice to have witnesses testify under 
oath.
    Do you have any objection to testifying under oath? The 
chair then advises you that, under the rules of the House, the 
rules of the committee, you are entitled to be accompanied by 
counsel. Do any of you desire to be accompanied by counsel 
during your testimony today?
    In that case, if you would, please rise. I ask that you 
raise your right hand, and I will swear you in.
    [Witnesses sworn.]
    Mr. Harper. You are now under oath and subject to the 
penalties set forth in title 18, section 1001, of the United 
States Code.
    You may now give a 5 minute summary of your written 
statement. And so I will begin with you, Mr. Byard, and ask you 
to give us a summary of your testimony.

TESTIMONY OF JEFFREY BYARD, ASSOCIATE ADMINISTRATOR, OFFICE OF 
  RESPONSE AND RECOVERY, FEDERAL EMERGENCY MANAGEMENT AGENCY; 
CHARLES R. ALEXANDER, JR., DIRECTOR, CONTINGENCY OPERATIONS AND 
 HOMELAND SECURITY HEADQUARTERS, ARMY CORPS OF ENGINEERS; AND 
  BRUCE J. WALKER, ASSISTANT SECRETARY, OFFICE OF ELECTRICITY 
     DELIVERY AND ENERGY RELIABILITY, DEPARTMENT OF ENERGY.

                   TESTIMONY OF JEFFREY BYARD

    Mr. Byard. Thank you, Chairman Harper, Ranking Member 
DeGette, and members of the subcommittee.
    Good afternoon, Chairman, Ranking Member DeGette, members 
of the subcommittee. As stated, my name is Jeff Byard. I'm the 
Associate Administrator for the Office of Response and Recovery 
for FEMA. It is my pleasure to be here on behalf the Secretary 
Nielsen, Administrator Long, DHS, and FEMA to share with you 
the opportunity to discuss the ongoing efforts to assist the 
power restoration in Puerto Rico and the U.S. Virgin Islands 
following the hurricanes of 2017.
    As stated, last year's hurricanes were historic and a true 
test of our Nation's ability to respond and recover from 
multiple concurrent disasters. We estimate roughly 25.8 million 
Americans were affected by Hurricanes Harvey, Irma, and Maria. 
That's approximately 8 percent of the entire U.S. population. 
Within 2 weeks, last September, Hurricanes Irma and Maria 
devastated Puerto Rico and the U.S. Virgin Islands, leaving 
nearly all of Puerto Rico's 1.5 million electric customers and 
more than 100,000 U.S. Virgin Island customers without power.
    FEMA was actively engaged with the Commonwealth and the 
territory prior to each hurricane's landfall. Federal resources 
and personnel were positioned in Puerto Rico and the U.S. 
Virgin Islands to coordinate with Commonwealth and territory 
officials. Within days of Irma's impact, hundreds of thousands 
of meals, liters of water, and other lifesaving commodities 
were delivered to survivors. One day after Maria's landfall, 
there were already 3,500 Federal staff on the ground in both 
Puerto Rico and the U.S. Virgin Islands. Within 10 days, there 
were more than 10,000 Federal staff on the ground working 
around the clock with the Commonwealth and territory officials 
to stabilize the situation.
    Power restoration in Puerto Rico and the U.S. Virgin 
Islands has been and continues to be top priority for FEMA. The 
Puerto Rico Electric and Power Authority, or PREPA, and the 
Virgin Islands Water and Power Authority are ultimately 
responsible for the permanent repair of power generation, 
transmission, and distribution infrastructure. However, FEMA 
and our Federal partners, including the U.S. Army Corps of 
Engineers, the Department of Energy, are closing working to 
assist in those efforts.
    The FEMA mission assigned the U.S. Army Corps of Engineers 
is to provide temporary power to both the Commonwealth and the 
territory. The Corps has installed more than 1,900 emergency 
generators in Puerto Rico and another 180 emergency generators 
in the U.S. Virgin Islands, prioritizing critical facilities, 
such as hospitals, police and fire stations, and water 
treatment plants. This temporary power mission is the largest 
in our agency's history.
    FEMA has also issued a mission assignment to the U.S. Army 
Corps of Engineers--excuse me--U.S. Army Corps of Engineers to 
assist PREPA in emergency repairs across the island. 
Specifically, the U.S. Army Corps of Engineers was tasked to 
help develop a power restoration plan and execute temporary 
repairs to the grid to allow interim restoration until full 
electrical grid restoration can be implemented.
    FEMA also mission assigned the Department of Energy to 
provide subject-matter expertise and technical assistance in 
support of the power grid damage assessment and power 
restoration efforts in both Puerto Rico and the U.S. Virgin 
Islands in coordination with the Army Corps of Engineers.
    The Department of Energy is also working to identify 
various options for the long-term restoration of Puerto Rico's 
electric grid with added resilience. As of today, as stated, 
PREPA reports more than 90 percent--96 percent of the customers 
are able to receive power. And as of March 9th, 100 percent of 
the U.S. Virgin Islands' electricity customers have power.
    FEMA's primary role of supporting the restoration of the 
Puerto Rico and U.S. Virgin Island power grids is through our 
public assistance program, which includes reimbursements for 
emergency work, which would also include temporary power 
restoration as well as permanent work projects.
    In Puerto Rico, the Governor elected to use section 428 of 
the Stafford Act, which is the public assistance alternative 
procedures, to allow applicants to request and obtain funding 
based on certified cost estimates. As the Administrator 
announced this morning, FEMA and the Commonwealth have 
coordinated on the guidelines for the permanent work. The goals 
of section 428 are to increase flexibility in the 
administration of assistance, expedite the delivery of 
assistance, and provide financial incentives for timely and 
cost-effective completion of public assistance projects. Once 
FEMA and the applicant agree on the damage assessment scope of 
work and estimated cost, a public assistance grant can be 
obligated.
    Thanks to the action taken by Congress, the President 
signed the Bipartisan Budget Act of 2018 in February. And under 
these authorities given to FEMA, in this law, FEMA may provide 
funding in Puerto Rico and the U.S. Virgin Islands to rebuild 
damaged infrastructure without regard to its predisaster 
condition and to fund replacement of components that were not 
damaged but necessary to upgrade the system to industry 
standards. These new authorities allow FEMA to help Puerto Rico 
build more resilient infrastructure that will better withstand 
future storms.
    The road to recovery will be a long one, but FEMA work with 
the Commonwealth and territorial partners as well as Congress 
throughout the recovery process. We will be in the impacted 
communities for as long as we are needed.
    I am pleased again to be here today to represent the 
dedicated FEMA staff and for the opportunity to discuss this 
important mission. I am happy to take any questions the 
subcommittee may have at this time.
    Thank you.
    [The prepared statement of Mr. Byard follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Harper. Thank you very much.
    Next we'll recognize Mr. Charles Alexander, Jr., Director 
of Contingency Operations and Homeland Security Headquarters, 
Army Corps of Engineers.
    Thank you, sir.

             TESTIMONY OF CHARLES R. ALEXANDER, JR.

    Mr. Alexander. Thank you, Chairman Harper, Ranking Member 
DeGette, and distinguished members of the subcommittee. Thank 
you for the opportunity to testify before you today. It's also 
good to see several of you that I accompanied you on your 
congressional delegation down to Puerto Rico. When you have a 
chance to get down there again, while we still have a lot to 
do, you will see we have come a long way.
    The Corps conducts emergency response activities under two 
basic authorities: the Stafford Act and Public Law 84-99. Under 
the Stafford Act and the National Response Framework, we 
support FEMA as the lead Federal agency for Emergency Support 
Function 3, public works and engineering. ESF 3 provides for 
temporary emergency power, temporary roofing, debris 
management, infrastructure assessment, critical public facility 
restoration, and temporary housing. Under P.L. 84-99, we plan, 
we prepare for, and recover from disasters in coordination with 
local, State, and Federal partners.
    When disasters occur, Corps teams and other resources are 
mobilized from across the command to assist the local office 
with a response to the event. As part of this mission, the 
Corps has more than 50 specially trained teams supported by 
emergency contracts which perform the wide range of ESF 3 
support missions. The Corps uses these pre-awarded contracts so 
they can be quickly activated for mission such as debris 
removal, temporary roofing, and generator installation.
    This past year, the Corps has supported FEMA, led Federal 
responses in recovery operations in support of multiple events, 
including wildfires in California and Hurricanes Harvey, Irma, 
and Maria. The Corps was given 47 Hurricane Irma related 
mission assignments at 181 million and 42 Hurricane Maria 
related mission assignments at 3.4 billion by FEMA. This 
included missions in all six ESF 3 mission areas to include 
navigation restoration, levee and dam safety under our Public 
Law 84-99 authority. As of this morning, the Corps has 
completed over 2,200 temporary generator installations in the 
Caribbean, including 180 in the U.S. Virgin Islands and over 
2,000 in Puerto Rico. The mission in U.S. Virgin Islands is 
complete while in Puerto Rico 881 generators remain installed 
at critical facilities across the island.
    Under FEMA authority, we continue to assist Puerto Rico 
with operation and maintenance of critical, non-Federal 
generators across the island. Four out of 10 1- to 2-megawatt 
micro grids installed in support of the power grid restoration 
remain in service. As of today, this includes one in Vieques. 
The Corps completed over 73,000 temporary roofing installations 
this storm season, and that includes 3,600 in the Virgin 
Islands and over 59,000 alone in Puerto Rico. All the temporary 
roofing missions are complete.
    In the U.S. Virgin Islands, the Corps debris removal 
mission is 100 percent complete. In Puerto Rico, debris removal 
is 94 percent complete. We have removed over 3.9 million cubic 
yards of debris. We are still working on disposal, and that 
dialogue continues on what to do with it.
    Our debris teams are actively working in 27 municipalities 
with debris removal complete in 28 municipalities. We expect to 
be complete with all debris removal and disposal by mid-June. 
The Corps worked closely with officials in Texas and Florida 
during their storm events. In Puerto Rico, the Corps dam and 
levee safety teams inspected over 17 priority dams and worked 
closely with the Puerto Rico Electrical Power Authority to 
stabilize a spillway failure at Guajataca Dam.
    On 30 September 2017, the Corps was given a FEMA mission 
assignment under Stafford Act authority to assist the 
Commonwealth in conducting emergency repairs to the power grid 
itself. Unlike our ESF 3 mission areas, the Corps did not have 
pre-awarded contracts to use for this effort. Instead, we 
competitively awarded contracts for temporary power generation, 
line repair, and logistic support and transpiration. This 
included acquiring over $240 million in materials critical to 
the restoration effort, many with unique specifications to 
Puerto Rico alone. The Corps is partnering with PREPA in this 
effort, and we have energized over 96.7 percent as of today of 
customers thus far. And we acknowledge that over 49,000 
customers remain without power.
    In coordination with FEMA, PREPA, and the Commonwealth, we 
have begun to gradually right-size our contracted workforce. On 
April 6th, we modified our ongoing contract with PowerSecure, 
allowing Corps contractors to continue to assist through May 
18. The Corps will continue to operate mega generator gas 
turbines at Palo Seco and Yabucoa through late May as PREPA 
completes repairs to the plants at those sites. Remaining 
materials we use to complete grid repairs and replenish 
depleted inventories on the island through mid-May. The Corps 
remains fully committed and capable of executing its other 
civil works activities across the Nation despite our heavy 
involvement in these ongoing response and recovery operations. 
We also remain ready and poised to assist in future events as 
they occur.
    This concludes my testimony. I look forward to answering 
any questions you may have.
    Thank you.
    [The prepared statement of Mr. Alexander follows:]
 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Harper. Thank you, Mr. Alexander.
    The chair will now recognize the Honorable Bruce Walker, 
Assistant Secretary, Office of Electricity Delivery and Energy 
Reliability in the Department of Energy.
    Welcome. You've got 5 minutes.

                  TESTIMONY OF BRUCE J. WALKER

    Mr. Walker. Thank you. And I would note, I think Mr. 
Alexander's title is just a little longer than mine.
    Mr. Harper. They both need a little work on the business 
cards.
    Mr. Walker. Absolutely. Thank you, Chairman Harper.
    Chairman Harper, Ranking Member DeGette, and distinguished 
members of this subcommittee, I appreciate the opportunity to 
participate in this update on the restoration and recovery of 
Puerto Rico's electric infrastructure.
    Upon being sworn into my current job as the Assistant 
Secretary for the Office of Electricity last fall, my first 
order of business was to travel to Puerto Rico and the U.S. 
Virgin Islands. During my 2 weeks in Puerto Rico and USVI, I 
was able to gain firsthand experience about how DOE could best 
assist in the emergency restoration and the following recovery 
efforts. The Office of Electricity is responsible for providing 
energy-related expertise to FEMA, interagency partners, and the 
administration as part of DOE's emergency response activities. 
DOE serves as the coordinating agency for Emergency Support 
Function 12, Energy, ESF 12, under the National Response 
Framework. In addition, DOE is the primary agency for the 
Infrastructure Systems Recovery Support Function under the 
National Disaster Recovery Framework.
    As the lead for ESF 12, DOE is responsible for providing 
information and analysis about energy disruptions and for 
helping to facilitate the restoration of damaged energy 
infrastructure. The mission of the Office of Electricity is to 
develop innovative, cutting-edge solutions and strategies to 
ensure that our Nation's critical energy infrastructure 
necessary for national security are secure.
    In order to fulfill this mission, DOE leverages the 
technical capabilities of the national laboratories and 
partnerships with key private stakeholders to focus on early 
stage research and transformative projects. It is this type of 
assistance the Department has provided and will continue to 
provide to Puerto Rico as it restores and improves its electric 
infrastructure.
    Over the course of the 2017 hurricane season, the 
Department has provided personnel to support National Response 
Coordination Center and several regional response coordination 
centers in support of FEMA's response operations. These 
included bilingual public information personnel to provide 
life-safety and life-sustaining communications and subject-
matter expertise as part of FEMA's incident management 
assistance teams. Likewise, we provided subject-matter experts 
to the Army Corps from our Power Marketing Administration 
utilities. And we sent line workers and equipment from our 
Western Area Power Administration to assist with the efforts on 
the ground in USVI.
    DOE continues to maintain close coordination with FEMA, and 
three subject-matter experts from our Power Marketing 
Administration remain deployed to provide technical support to 
the Army Corps with restoration planning, cost estimates, 
validation, and quality assurance. DOE also continues to have 
responders deployed under the National Disaster Recovery 
Framework to support FEMA recovery activities and to coordinate 
with industry about mutual assistance to support restoration 
efforts. Long-term recovery efforts will continue in the months 
and years to come, and DOE will work in partnership with Puerto 
Rico Electric Power Authority, PREPA, as they decide on the 
best paths forward for the island's electric infrastructure. In 
fact, just last night, I spoke at length with Walt Higgins, 
PREPA's new CEO. We discussed his vision and the opportunities 
for DOE to assist in that effort as we transition into the 
recovery phase. I applaud the board of directors' decision to 
bring Mr. Higgins on board and look forward to working with him 
and his team.
    Additionally, DOE continues to work with stakeholders such 
as the Puerto Rico Oversight, Management, and Economic 
Stability board, PROMESA; the Puerto Rico Industrial 
Development Company, PRIDCO; and PREPA's Transformation 
Advisory Council, the TAC, board, to ensure their priorities 
and concerns are incorporated into all aspects of our work.
    During my meeting last week with several TAC members, we 
had a very open and productive dialogue that will further 
inform DOE's efforts to provide technical assistance to PREPA 
in the recovery efforts. DOE will continue to leverage and 
capitalize on the investments made at our national laboratories 
in grid technology research, development, and deployment. One 
endeavor we are pursuing is to increase the resilience of 
Puerto Rico's electric infrastructure through leading-edge grid 
modeling. This modeling will provide technical insight into the 
resiliency objectives allowing for coordination and 
communication of potential solutions across stakeholder groups. 
More importantly for the future, the modeling will enable 
interdependency analysis of critical infrastructure, highlight 
operational next worst scenarios, and facilitate contingency 
planning for investments in operational maintenance.
    Working in partnership with FEMA and the Department of 
Housing and Urban Development, this project will allow us to 
work with PREPA as they plan future investments and determine 
where financial resources will be optimized.
    Working with our highly qualified team at the Pacific 
Northwest, Oak Ridge, Sandia, and Argonne National Laboratories 
will also be utilizing our microgrid design tool looking at 
feasibilities of grids and local citing of distributed energy 
resources. There will also be a focus on the potential 
utilization of microgrids around industrial sites due to the 
important role they play in the economy.
    DOE is working in partnership with a variety of 
stakeholders to ensure long-term recovery efforts are conducted 
with input from a wide range of parties.
    Recently, Secretary Perry and I met with Mississippi 
Governor Phil Bryant, the current chairman of the Southern 
States Energy Board. We met to discuss opportunities for SSEB 
to work with the Governor and the legislature of Puerto Rico to 
establish a reliable, affordable, and sustainable electric 
energy grid and to develop a policy and legal framework to 
provide a regulatory process for privatization.
    After confirming Governor Rossello's desire to work with 
SSEB, my office awarded the strategizing electric energy 
regulatory framework in Puerto Rico contract to SSEB. DOE looks 
forward to working with SSEB to present Puerto Rico with 
various options and recommendations of the electricity and 
other sectors.
    And with that, I am extremely proud of the work that my 
team at DOE has done, and I am encouraged to see that we were 
able to reach completely across the entire agency, bringing 
together resources from our headquarters, our PMAs, as well as 
our national labs, to bear down on this problem. The emergency 
restoration is nearing its conclusion, and now we must once 
again come together to ensure the recovery phase provides the 
value to our citizens in Puerto Rico and the U.S. Virgin 
Islands. We are committed to work with our partners to 
accomplish this.
    I look forward to your questions.
    [The prepared statement of Mr. Walker follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Harper. Thank you very much.
    Mr. Walker, the ``Build Back Better'' report that was 
released in December provided a series of high-level 
recommendations of what is needed to rebuild Puerto Rico's 
electric infrastructure to a level capable of withstanding a 
Category 4 storm. I understand DOE and some of the labs 
contributed to this report, and the recommendations align with 
the Department's guidance relative to the hardening and 
resiliency. And I recognize that this report was drafted 
relatively early in the recovery process and, therefore, had to 
rely on initial assessments and high-level assumptions.
    Based on what you know now, do you think the $17 billion 
cost estimate remains realistic, or would it be more or less?
    Mr. Walker. We are working with the TAC committee, who also 
participated, our members participated in the work that was 
being completed under the ``Build Back Better'' plan to vet 
through the recommendations that were made in that plan and how 
in depth they went. So, as we work through that process, we'll 
define what the overall cost will be.
    There are other recommendations that are beyond the scope 
of the ``Build Back Better'' plan that will be incorporated 
into a more overall and comprehensive plan. So, until such time 
as we have been able to pull all those together, I don't have 
an answer for the $17 billion.
    Mr. Harper. So how long do you think it'll take before you 
can reassess that?
    Mr. Walker. We're working right now with the TAC committee 
and our national labs to pull together all the recommendations 
and vet through. So part of the concern we've got as we move 
forward is there are considerations that have to be undertaken, 
things like generation.
    Mr. Harper. Yes. And I understand that. All I was asking--
--
    Mr. Walker. We don't have a model.
    Mr. Harper. Do you have a feel for--or are we talking 
another month, 2 months, 6 months, before you have----
    Mr. Walker. We're shooting for 60 days to have the model 
done.
    Mr. Harper. OK.
    Mr. Walker. And the model will enable us to go through 
different assumptions. In other words, where do you put 
generation? What value does it add? Does it change the paradigm 
of power flow such that you can actually reduce the cost per 
kilowatt?
    Mr. Harper. Let me ask this: Are there specific aspects of 
that report you now feel exceed what is necessary to harden the 
electric grid in Puerto Rico?
    Mr. Walker. There are some traditional transmission and 
distribution investments that--if you look at a lot of the work 
that companies like FP&L, CenterPoint have done with regard to 
hardening, things like using concrete poles, guying your poles 
differently, there are some very, very obvious things that can 
be done, maintenance program on the transmission towers so the 
guying that goes into the ground, the bolts actually don't rot 
away and the towers twist simply because one of the guys are 
broken. And so there is a number of those. And those are very, 
very quick wins. But recognizing there's a lot of 
infrastructure. On a 3,500-square-mile island, you've got to go 
through a lot of poles to do the maintenance, evaluate them, 
change them out, and do the things necessary to undertake that.
    Mr. Harper. Thank you.
    Mr. Byard, last year, FEMA had tasked the Army Corps of 
Engineers with restoring power in Puerto Rico, as you know. 
That mission assignment ends May the 18th of 2018. Currently, 
approximately 50,000 customers are still without power.
    Why is the Army Corps' role ending even though everyone may 
not have power on May 18th? And who made that decision?
    Mr. Byard. Yes, sir. As stated previously, the FEMA mission 
assigned the Corps to do the emergency power restoration. And 
if I may, we use words like ``unprecedented'' and 
``catastrophic,'' which all fits. Earthquakes such as 
Northridge, Andrew, Katrina, major storms, we've never had to 
rebuild an entire State or, in this case, commonwealth's 
infrastructure when it relates to power. We're rebuilding 
basically the entire thing, or the rebuild will be.
    So the emergency power mission is there to provide that 
temporary power. It is not the end state of what the grid will 
look like. We traditionally--and working with PREPA through the 
Unified Command Group, a very unified effort--these are not 
agencies going down different paths. It's coordinated through 
the joint field office. We are at 95, 96 percent complete with 
that mission assignment. The remaining 5 percent--or 2 to 5 
percent--is that difficult last file, the mountainous terrain.
    So, ending the mission of the Corps, first and foremost, we 
do that. We extended it based on a request from the Governor. 
We want to transition that to PREPA because that's a good stage 
in recovery, in any operation. Regardless if it's the 
Commonwealth or Texas, or you pick a State, it's better for 
them to start leading the recovery efforts.
    That doesn't mean we're leaving. That doesn't mean the 
unified command group's, you know, disbanding. There is a lot 
of work that will continue to go on.
    Mr. Harper. My time has expired.
    And I'll now recognize Ranking Member DeGette for 5 minutes 
for questions.
    Ms. DeGette. Well, I must say: I appreciate all of your 
agency's efforts. I do think it was a very, very devastating 
situation in both of these locations, but we're talking about 
Puerto Rico here. And I appreciate the efforts. But the fact 
remains that we still have 50,000 American citizens who don't 
have power. And there's a great deal of work that everybody 
agrees we need to do to improve the resiliency of the grid with 
hurricane season starting up again, as I mentioned, in just a 
few months, less than a few months.
    And so I know, Mr. Byard, you talked to the chairman a 
little bit about how the division of responsibilities has 
happened. But what I'm wondering, maybe, Mr. Alexander, you can 
talk to me about what transition efforts are underway as part 
of the Army Corp's responsible draw down and if any of you can 
tell me what we're going to do to get this power restored to 
these 50,000 people. That's the most urgent. And we'll all 
stipulate, these are the people in the most remote and 
difficult areas of the island. But they still are without 
power.
    I don't know who wants to talk about that.
    Mr. Alexander. I'll give it a shot, ma'am.
    We began what we called an orderly draw down previously 
with a mission assignment for PowerSecure as work goes. And I 
think on 6 or 7 April, Fluor was our large contractor. Their 
period of performance ended. There was no additional money to 
keep them under contract. So they have redeployed, demobilized.
    With the mod to our contract to PowerSecure, we still have 
519 contractor crewmen on the ground. They have repositioned 
over to the eastern region to Humacao and Caguas, and are doing 
work in that very rough terrain, mountainous, jungle 
conditions. Much being done by use of rotor-wing aircraft.
    PREPA, though, they still have significant resources in 
play. They've got over 800 personnel, and their contract for 
Cobra has an additional 600 plus as well.
    Ms. DeGette. So is the concept that PREPA is going to be 
the agency that's going to finish the restoration of power to 
that last 50,000 citizens?
    Mr. Alexander. That's the path we're headed down to, ma'am. 
But we are going to get as much done between now and 18 May. 
PREPA----
    Ms. DeGette. Do you have an estimate of how many people's 
power will be restored by then, May 18th?
    Mr. Alexander. Ma'am, our goal is 100 percent.
    Ms. DeGette. Well, do you think you can reach that goal by 
May 18?
    Mr. Alexander. We're going to do our best. Material is no 
longer a limiting factor. It was for quite some time.
    Ms. DeGette. Well, let us know what we can do to help 
because we feel quite strongly about that.
    I just want to quickly, Mr. Byard, talk to you.
    I understand the permanent work has not yet started in 
Puerto Rico. Is that correct?
    Mr. Byard. Yes, ma'am.
    Ms. DeGette. OK. And I also understand that, this morning, 
Administrator Long announced procedures for funding the 
permanent work. Is that right?
    Mr. Byard. Yes, ma'am.
    Ms. DeGette. And here's the thing I'm concerned about with 
that: I've got a copy of that, which we just got this morning. 
Here's the guide for permanent work. And here's what I'm 
concerned about is that it says here it's a 90-percent Federal 
cost share, which I assume that they're saying Puerto Rico's 
going to pay 10 percent. Well, I don't see where Puerto Rico's 
going to get that 10 percent. Perhaps you can tell me where 
they might be able to get it.
    Mr. Byard. Well, the Commonwealth has access to--as just 
noted--I don't know the figures, and I don't want to speak 
necessarily for the working of it. But $20 billion, I believe 
it was, from HUD. They have access to community disaster loans 
upwards of a billion dollars.
    But what I can speak to is the permanent reconstruction and 
the unique opportunity that we have. And when I say ``we'' in 
this, it's not FEMA. It's collectively with the Commonwealth. 
So what the 428 program will allow us to do, coupled with the 
Bipartisan Budget Act, is look at the permanent reconstruction.
    Ms. DeGette. And improving it.
    Mr. Byard. Yes.
    Ms. DeGette. But if you can have the agency, please, 
supplement your responses to give us some better sense of----
    Mr. Byard. Ma'am, by the law that guides us, the Stafford 
Act, we do not have the authority to increase the Federal cost 
share over 90 percent.
    Ms. DeGette. So you think it's the Stafford Act that's with 
the 10 percent?
    Mr. Byard. The Stafford Act guides how far we----
    Ms. DeGette. OK. And then Stafford Act says 10 percent. Is 
that what you're saying?
    Mr. Byard. The Stafford Act allows us to increase to a 90 
percent if----
    Ms. DeGette. Right. But not beyond the 90 percent.
    Mr. Byard. Not 100 percent.
    Ms. DeGette. So you think it'd take an act of Congress----
    Mr. Byard. Yes, ma'am.
    Ms. DeGette [continuing]. To fix that?
    Thank you very much. That's very helpful.
    Mr. Griffith [presiding]. Now recognize the gentlelady of 
Indiana, Mrs. Brooks, for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman. And thank you so much 
for holding this really important hearing.
    And although some of us haven't yet been to Puerto Rico, we 
certainly hear from constituents who have family still there, 
and we have certainly read a lot in the media as well. I want 
to thank our colleague, Representative Gonzalez-Colon, for 
sharing with us on a regular basis what's happening. As a 
matter of fact, I recall, when we were all headed home for the 
holidays, she shared with us that she did not have power yet 
when she was heading home for the Christmas break. And that had 
been a couple of months. I believe you have power now. I 
believe she has power now. But obviously 50,000 constituents do 
not.
    And I happened to fly out yesterday with the head of Duke, 
from Indiana. And Duke sent a number of people to the island 
but yet the challenges they experienced had to do with 
equipment, as I understand, getting equipment.
    And can all of you share with us, what have we done in 
preparation either for the next hurricane or what kind of plans 
do we now have in place to get equipment there for these 
contractors who have gone in, for companies that have gone in 
to help to make sure that we have a new plan? Because the plan 
we had was incredibly frustrating and was very difficult 
because of the problems with it being an island and with it 
being--who would like to start?
    Mr. Byard. So, ma'am, you know, what we do know is that our 
ability to do logistics for an island has increased. And it's 
increased by the capacity we've been doing it.
    So what we've done at FEMA, and as attested to here on the 
panel, we know where the emergency generation needs to be. We 
know where the generators are. We have the ability to ensure--
again, all of us want a resilient grid. All of us want the 
power to be 100 percent restored and stronger than ever by 
hurricane season. That's not going to happen. And so what we 
have to do is prioritize again the hospitals, fire stations, 
police stations, those critical nodes that are truly life 
safety after the event. And we've done that.
    The other thing we've done is we have a large contingent of 
Federal resources on the ground in lieu of personnel, the joint 
field office, made up of the agencies represented here and 
more. FEMA has also currently just under 1,500 local hires, 
Puerto Ricans. I think the largest single employer on the 
island is 1,600. So we have a footprint. We have a means to 
move commodities in through our contracting with our barge, and 
we've gotten smart about how to do that and how to source those 
nodes.
    The other thing, if I may, is our now strong and continuing 
strengthened relationship with the critical sector of the 
private sector, the communications sector, the power sector. 
Now we know we have to better synchronize with and understand 
what that means to move Verizon in, because 86 percent of the 
Puerto Ricans are on cell phones. These are the things that we 
traditionally don't, but we know now. We're smart now.
    Mrs. Brooks. Have there been any Federal restrictions, 
whether it's regarding wilderness or land use, anything that 
has impeded your rebuilding efforts?
    Any of you. Have you encountered any Federal laws or 
Federal restrictions that have impeded your progress?
    I'm taking that as a no?
    Mr. Alexander. Ma'am, the only thing I can think of, 
actually, is the environmental considerations with respect to 
debris reduction.
    Mrs. Brooks. You mentioned the massive amount of debris. 
And so what is that? You now have millions of acres of debris?
    Mr. Alexander. It's been a challenge to reduce and chip 
that amount of debris that's collected. Efforts to accelerate 
disposal through air curtain incineration have not gained 
traction, environmental concerns on both Puerto Rico and the 
U.S. Virgin Islands. And we're still waiting ultimately on 
disposition of where all this debris is going to go, literally. 
Particularly in the Virgin Islands, they have limited capacity 
to hold much more. That's the biggest challenge.
    Mrs. Brooks. What are the options right now being 
considered?
    Mr. Alexander. Well, there's options up to and including 
actually, by sea, taking this debris to several countries that 
have offered to take it and have a means to reduce it or use it 
in a purposeful fashion.
    Mrs. Brooks. OK. Thank you for your efforts.
    I yield back.
    Mr. Walker. If I may add one, Congresswoman.
    The Stafford Act doesn't contemplate rebuilding, as it's 
written, an electric system. And by virtue of the way the 
Stafford Act's written, it contemplates things being put back 
the way they were. That's not the way an electric system is 
typically--or it's not the way it's restored during an 
emergency. There are NESC codes that are required to be 
followed by utility workers. And when you are in an emergency, 
unless you absolutely can't follow it, when you set poles and 
you run wire, you follow that national electric safety code. 
That's not contemplated in the law. And, as we look at that 
Stafford Act moving forward, looking at different types of 
disasters, particularly as they relate in the energy sector, I 
think there's a number of significant improvements we can make 
in contemplation of future events and having to utilize the 
Stafford Act again.
    Mrs. Brooks. Thank you. We would look forward to receiving 
your recommendations on those improvements.
    I yield back.
    Mr. Griffith. I thank the gentlelady.
    I now recognize the gentlelady of Florida, Ms. Castor, for 
5 minutes.
    Oh, OK. I'm happy to recognize the gentleman from New York, 
Mr. Tonko, for 5 minutes.
    Mr. Tonko. I thank my friend for allowing me to go first.
    And thank you, Mr. Chair.
    And thank you to all of our witnesses for joining us this 
afternoon.
    I know that a number of New York State utility workers, 
line workers, participated in the comeback. And I know that 
Ellen introduced me to a number of folks who are with us today 
that worked on that exercise. So I thank you for the work from 
many utility perspectives for sharing in this comeback.
    It's been 6 months since Hurricanes Irma and Maria made 
landfall in Puerto Rico, and it is important that the committee 
conduct proper oversight of the Federal Government's response 
to these natural disasters.
    I would like to take a few minutes to turn our attention to 
the Federal Government's role in the Commonwealth's long-term 
recovery. We have heard from individuals on the island that the 
PREPA electrical grid was in poor condition prior to the 
hurricanes making landfall, which made it especially 
susceptible to storm damage.
    So, Secretary Walker, could you please describe how the 
poor condition of PREPA and its grid left it vulnerable to 
Hurricanes Irma and Maria?
    Mr. Walker. Sure. And I'll answer it more generically.
    In the industry, there are typical practices that are 
common throughout the different types of utilities in the 
United States, whether they're APPA, NRECA or IIU members. 
Those standards involve things like operational maintenance 
practices that would have you go inspect your poles for their 
integrity. You would go inspect your guy wires on your 
transmission systems for integrity. You would clear your 
vegetation from a vegetation management strategy that comports 
with the criticality of the system working from transmission 
down into your distribution separately.
    So, when you don't follow those practices over time, 
equipment deteriorates. It doesn't have the capabilities that 
they were necessarily designed with initially. And then when 
they're faced with 140-plus mile an hour winds, they'll fail.
    Mr. Tonko. I thank you for that.
    A resilient electrical grid is a crucial component of a 
successful long-term recovery. The ``Build Back Better'' 
report, which was issued by a number of entities including 
Navigant Consulting, that we will hear from during the second 
panel, set out a number of recommendations for building a 21st 
century electric grid on the island.
    Again, Secretary Walker, could you please explain DOE's 
role in the long-term modernization of Puerto Rico's electrical 
grid as well as what the Department has done to modernize the 
electrical grid on the island to date?
    Mr. Walker. Sure. The work that DOE does is fundamentally 
providing the technical expertise and convening the right 
stakeholders to move these initiatives forward. We specifically 
have tremendous capability within our national labs to model 
and work through developing a model for Puerto Rico that it is 
enabled to do load flow analysis, short-circuit analysis, 
things that you would see in a utility like Con Edison or 
Southern Company or most utilities that model their systems so 
that they can really inform the decisions of the investments 
that they make.
    And so we've already started working with FEMA developing a 
model that also incorporates a critical infrastructure. So the 
couple thousand generators that have been placed at various 
locations--those locations and the functions of the underlying 
clients who are served by those generators will now all be 
incorporated into this model. The model will also have 
capabilities to enhance their operational capability from the 
standpoint of, when an event occurs by exception, the model 
will be able to actually determine and alert the operators as 
to what the next worst-case piece of equipment to lose is, 
which is tremendously important when you're operating the 
system. And as was noted earlier, the citizens in Puerto Rico 
have experienced unreliability in the past. So this will help 
rectify that.
    That notwithstanding, the other component, which is equally 
as important, is the contingency analysis which enables you to 
walk through in an iterative process and take every piece of 
equipment in and out of the system and then evaluate what load 
flow analysis what happens to the system when you do that. And 
you can expand it to actually have two pieces out. So an N-1 
would be the typical study that--Congressman, you're very 
familiar with, these processes. And then you would do an N-1-1 
on the transmission system. And these type of analyses and the 
requisite investment that come from that analysis will be what 
helps PREPA in the long run really make the right decisions 
going forward and being able to operate the system. And DOE is 
working on that. That model's already--the template for it 
exists. The critical infrastructure is in it. We've divided up 
the component pieces for the actual analysis and the algorithms 
for the load flow among a number of our national labs to 
complete that.
    Mr. Tonko. I know that with some restoral scenarios in the 
past, they were able to invest to get the power back on but 
also with an opportunity in mind to upgrade the standards of 
the system. Has that been done here? Otherwise we can pour a 
lot more money into a system and say, this is as far as we're 
going to go.
    Is it done with improvements in mind?
    Mr. Walker. You're talking about the restoration that's 
been done heretofore?
    Mr. Tonko. Yes. Put the lights back on but keeping in mind 
a state-of-the-art opportunity that can serve as a prototype 
including distributed generation, microgrids.
    Mr. Walker. So generally----
    Mr. Tonko [continuing]. Renewables.
    Mr. Walker. Right.
    Generally speaking, no, from the standpoint of you're in 
emergency restoration mode. So it's not very feasible to 
redesign the system on the fly when you're really just trying 
to get the lights on. So the emergency restoration component is 
the component that we've been focused on up to this point. And, 
indeed, we still have 50,000, you know, customers that are 
still out of lights.
    That being said, for the last 3 months, my team at DOE 
utilizing folks at our PMAs, as well as the national labs and 
in-house people here in D.C., have been working through the 
microgrid capabilities and designs particularly using our 
microgrid design tool kit that was developed by the Sandia 
National Lab. They've gone down to Puerto Rico. They've visited 
a number of sites in Puerto Rico where our capability to build 
microgrids can be utilized and accessed.
    So there has been a significant amount of work done, very 
technical work, on looking at opportunities on the island for 
the integration of renewables in various forms. Modeling, 
working with other Federal agencies to understand.
    Mr. Harper. Sorry to cut everybody off, but we're on a 
fairly tight schedule. If we're going to get through this 
before votes, we're going to have to stay within the 5 minutes 
for future time. Thank you very much.
    Mr. Walker. Thank you, Mr. Chair.
    Mr. Harper. Thank you very much. At this time, the chair 
will recognize the vice chairman of the committee, Mr. 
Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman. Let me put 
in two pieces of information, if I might.
    Our colleague from Puerto Rico got some changes made in the 
law. We took care of one of the problems, Mr. Walker. And that 
was restoring--because we saw that when we were down there on 
our tour--restoring the system without regard to predisaster 
conditions was put in as part of a third supplemental.
    Also the disaster, not long term, but disaster was raised 
to 100 percent of the cost. Now long term, we're still looking 
at 90 percent, so you would be right on that.
    But I don't think we took care of the issue you were 
talking about related to code and how you put the wires up. 
And, of course, the codes are put there for safety, but I would 
ask you, are you saying that there's some of that that we could 
eliminate in a disaster situation that would make it easier for 
you all and still maintain safety?
    Mr. Walker. I'm familiar with the language that came out 
through the supplement, and I think it's narrowly scoped. And I 
think, as we consider the different types of emergencies that 
we have in the energy sector--so it's not only the electric 
component; it's the gas, it's petroleum pipelines, it's the 
terminal ports, it's the L&G sites that we've got--as we 
consider those things going forward, I think the language needs 
to be expanded, and I'm happy to provide, you know, potential 
edits to this committee for reconsideration.
    Mr. Griffith. And let me say, we would love to see those 
suggestions, and so forth, because you might have been able to 
tell from the questioning, all of us on both sides of the aisle 
want to try to help these areas that were so devastated----
    Mr. Walker. Sure
    Mr. Griffith [continuing]. In the islands.
    Mr. Walker. I appreciate that opportunity.
    Mr. Griffith. Mr. Alexander, good to see you again. Did you 
have something else you wanted to add?
    Mr. Alexander. Yes, sir, if I may. While not the long-term 
resilient grid that we know we all need, the grid that we're 
restoring today is going to be in much better condition than 
the grid that was there last August.
    We are repairing lines to code. Those crews would not work 
to any less standards for life, health, safety, and legal 
reasons.
    There are new transmission and distribution lines. There 
are new lattice towers. There are new poles. So, again, while 
not anything has been done underground or to harden or to 
elevate power-generation facilities or substations, the work 
that we have done is not all for naught. It will be a much-
improved grid to what was there previously.
    Mr. Griffith. And I'll open it up. I'm going to have a 
series of questions on microgrids. And I'll open it up to 
anybody. I had them drafted for Mr. Walker. But I actually am a 
big fan of microgrids, maybe more as a part of a mesh, but so, 
if there is a disaster, you can break that part off and still 
have functionality.
    So that being said, I know that a lot were used. That's 
correct, isn't it--the microgrids concept was used a lot in the 
restoration, at least getting things going? Isn't that correct?
    Mr. Walker. That is correct.
    Mr. Alexander. Sir, we put 10 in place. Four still in 
operation.
    Mr. Griffith. And so how were these sites selected, and are 
these envisioned as permanent solutions? And keep in mind that 
maybe these aren't, but I think microgrids maybe ought to be a 
part of the long-term solution, because we're going to get more 
storms, and we might need to have those parts that can break 
out and be independent when needed.
    Mr. Walker. I'll take that. DOE absolutely believes that 
microgrids have an opportunity to play a strategic part here, 
as well as in other parts of the country.
    I will say that part of what we're trying to work through 
is the development of a model to know where and how these 
microgrids will interact with the system.
    So the concept of just dropping microgrids in and tie them 
together, just does not work.
    Mr. Griffith. Right.
    Mr. Walker. There are some basic physics problems that 
we've got to figure out how to overcome. And that's what that 
model enables us to do.
    Mr. Griffith. Well, one of the towns that we visited, at 
one time, it had a hydroplant.
    Mr. Walker. That's right.
    Mr. Griffith. And while it wouldn't supply everything, if 
that hydroplant had still been there, if we had maintained that 
as a small microgrid, it could have at least maybe supplied the 
hospitals or one of the schools and an emergency evacuation 
center.
    That's the kind of thing I'm looking at. And you indicated 
that it could be used in other parts of the country, and I 
think we should use Puerto Rico, as long as we're spending the 
money down there, which I think is the right thing to do, use 
that as a testbed for this technology so that we can start 
building it into other places that might be remote or have 
issues that are similar where you might have the hydro 
available or some other power source available that you could 
have as a backup in emergency situations.
    Are you all looking at that?
    Mr. Walker. That's exactly what we're looking at.
    We are looking at the different opportunities we have to 
integrate microgrids as well as other distributed energy 
resources in an approach where we can optimize the utilization 
of those types of sources and with a keen eye at driving the 
cost per kilowatt down on an overall basis while simultaneously 
improving the power quality.
    The power quality is a major issue on that island, and 
nearly 50 percent of the island is manufacturing.
    Mr. Griffith. Right. And I appreciate all your hard work on 
this. And it's good team work that we have going forward.
    Thank you. I yield back.
    Mr. Harper. The gentleman yields back. The chair will now 
recognize the gentlewoman from Florida, Ms. Castor, for 5 
minutes.
    Ms. Castor. Well, thank you, Mr. Chairman and Ranking 
Member DeGette, for having this hearing today, and for the work 
of the professional staff.
    And it's nice to have you here, Ms. Gonzalez.
    And thank you to all of you for your hard work on this.
    I am very heartened by the discussion of the fact that 
we're not totally weighed down by the Stafford Act that says 
you can only repair a grid and you can't build it back in a 
more resilient fashion with all of the modern technology we 
have, with all of the tools, with the major investments we make 
in our national laboratories.
    Mr. Byard, it's very important for the Congress to 
understand this: We appropriate enormous sums for the top line 
research, the best in the world, and now to have it out in the 
field applied to protect the taxpayers from the next storm. 
This really hits home, coming from Florida, where I've seen 
damage like this. But we've never had devastation of electrical 
grid as we've had in Puerto Rico after Maria.So is it clear to 
you that, in the last supplemental appropriations package, that 
the Stafford Act did give you all of the authority that you do 
need to build the more modern, resilient grid that we've been 
talking about, what Mr. Griffith talks about, the microgrid to 
build in renewals?
    Do you have all of that authority, noting that we may have 
to go back and do some things relating to electrical grids and 
other disasters?
    Mr. Walker. I'm aware of the authority. The issue is you 
just don't build a grid overnight and integrate all of these 
things together. You just can't. And we're further hampered by 
the fact that PREPA doesn't have a good model of their system 
that is able to demonstrate where you would place certain 
things so----
    Ms. Castor. So how do you get to that model?
    Mr. Walker. We're building the model.
    Ms. Castor. OK.
    Mr. Walker. We're building it for them.
    Ms. Castor. All right.
    Mr. Walker. But it's a model that they would normally have 
so----
    Ms. Castor. And that same model that's going to incorporate 
renewable energy and also improve resiliency so we don't get 
into the same issues of importing a lot of fuel as well?
    Mr. Walker. Well, those are a couple of questions mixed in. 
But the model will enable us to answer some questions like, 
where do I put generation, or do I need to replace generation? 
There's about 5,600 megawatts of name plate generation on the 
island. The peak load is roughly around 2,500 megawatts. Most 
of the generation is in the south. Most of the load pocket is 
up in the north in San Juan.
    They've got reactive power flow issues----
    Ms. Castor. So before the storms----
    Mr. Walker. That the model illustrates.
    Ms. Castor. Before the storms, renewable sources generated 
a mere 2.4 percent of the island's electricity, and many of the 
renewable energy facilities that did exist on the island were 
damaged. And this really gives us a fantastic opportunity.
    Working with the national labs, there are scientists at the 
University of Puerto Rico. They've initiated an oasis. I know 
that Navigant Study that Mr. Tonko talked about. Mr. Walker, 
can you go into greater detail about how renewable energy 
sources are incorporated now? And then maybe you all could talk 
about how we build those in to protect the taxpayer in the 
future.
    Mr. Walker. Fundamentally, I mean, on an aggregated basis, 
they are not built into the system today. Two percent of that 
system is very small, given the opportunity that was on the 
island, but those were the choices that PREPA made to not put 
those in.
    Ms. Castor. But they have a renewable portfolio standard of 
a goal of 12 percent renewables by 2019. So how will all of our 
Federal efforts help ensure that Puerto Rico meets that goal?
    Mr. Walker. Well, as we build this model, the model will 
enable us to identify where we have opportunities to put 
renewable energy into the island.
    So, for instance, I'll give you an example, and for those 
who had gone down there, there are right places to put solar, 
and there are wrong places to put solar, as I think we saw on 
the island. There are right places to put wind, and there are 
wrong places to put wind, which is why I suggest that you just 
don't put all of these things into a 3,500-square-mile island 
without understanding the impact to reliability, the impact to 
resiliency, how power flows. Things like what exists today, 
where you've got generation in the south and load in the north, 
just doesn't make sense with the system that they have.
    So a significant amount of electrical engineering work has 
to go into making the decision. And we are keenly aware of that 
given the fact that, in the supplement, there's $2 billion 
delegated to HUD for the electric system. And what we are doing 
and working with HUD to help define that and working with PREPA 
to get the information to build their model.
    Ms. Castor. Thank you, Mr. Chairman.
    And I did want to thank Senator Eduardo Bhatia from Puerto 
Rico, who has been a good resource of information on this. And 
thank you very much.
    Mr. Harper. The gentlewoman yields back.
    The chair would now recognize the gentleman from New York, 
Mr. Collins, for 5 minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    Just out of curiosity, so we had couple thousand temporary 
generators. Are they all going to stay or--I'm just thinking 
financially, a lot of money.
    Are they going to be remaining as backup power generators, 
or are they being removed?
    Mr. Byard. That's a good question. There will be a number 
of those that remain on the island for backup generation.
    If I may, Ranking Member DeGette, I need to clear one 
misnomer up. The legislature can direct the 100 percent, and 
also, the President can direct the 100 percent. I did not say 
that earlier so I just needed to make that note.
    I apologize for that, but I wanted to----
    Mr. Collins. Yes.
    Mr. Byard. So the generation can--generators aren't built 
to run for 6, 7, 8, 9 months, as you know.
    Mr. Collins. Right.
    Mr. Byard. So some of those will be taken offline. Some of 
those will be, we're actively maintaining. They're owned by 
various other entities, through the Corps and so forth. But on 
our most critical facilities, we want to remain----
    Mr. Collins. Yes, well, that's good to hear. What about the 
microgrids? Same kind of question. We had 10 microgrids. Now 
you're saying there's four. What happened to the other six? Are 
they still there?
    Mr. Alexander. They came offline as the grid was restored 
to those areas and those facilities that were placed there to 
begin with.
    We've got what we call two mega-generation gas turbine-type 
plants, if you will, located in Palo Seco and Yabucoa that I 
believe will remain. Right now, we have continued to operate 
and maintain them, I think through the end of May. It is 
PREPA's intent, we understand, to ultimately purchase that 
equipment and use it to assist in stabilizing the power and 
backup to those power plants as they operate and maintain.
    I don't know the future as far as the remaining four.
    Mr. Collins. OK.
    Mr. Alexander. We just commissioned the one on the island 
of Vieques yesterday, which was welcome news to all of us.
    Mr. Collins. Go ahead.
    Mr. Byard. I was just going to follow up a little bit 
further. We are working through the Unified Power Command Group 
on a transition of materials, on a transition of the 
maintenance and operating requirements to PREPA. So, again, I 
want to reiterate that it's not kind of handing the football 
off and turning around.
    It is a team effort----
    Mr. Collins. OK.
    Mr. Byard [continuing]. Throughout the push.
    Mr. Collins. So the $64,000 question, to use that term, as 
we're heading into hurricane season again--it's hard to 
imagine, but in 3, 4 months, we'll be there--and while, 
clearly, what we've done to restore power, as you've indicated, 
has also to some extent, hardened and improved, the question 
would be hard to put into terms--better off now if we got hit 
again this coming September? Would the island sustain the same 
kind of hit after all the moneys and all the effort come this 
September? I know you can't give a definitive answer.
    Mr. Walker. I would like to answer that.
    Number one, I would like to point to Mr. Alexander's 
comment regarding the 50 megawatts of generation that are, in 
Yabucoa and 50 megawatts of generation in Palo Seco. Both of 
those alone changed the dynamics of the system.
    Part of the slow restoration of the system early on was the 
lack of generation in Palo Seco. So it was one of the plants 
that they didn't maintain the way they should have, and 550 
megawatts is offline.
    So that alone--and again Yabucoa being on the southeastern 
portion of the island becomes a critical component. So just 
having those 200 megawatts of generation is very significant 
from an operating-the-system perspective. And then the fact 
that things were built back where they could be to National 
Electric Safety Code is important because that increases the 
resiliency as well.
    Mr. Collins. I think that's the kind of answer we were kind 
of hoping for. We don't want to face this again, this year, 
next year, the following year. And I would like to think, as 
you're now indicating, we are better prepared. And certainly 
from Puerto Rico's standpoint, if we get hit again, we want to 
be back up a lot sooner. Is that right? Yes, there we go.
    Anyway, thank you all for what you've done. I think it was 
a situation we've never seen before. Hope to not see again. But 
thank you for all your efforts. I yield back.
    Mr. Harper. The gentleman yields back.
    The chair will now recognize the gentleman from California, 
Mr. Ruiz, for 5 minutes.
    Mr. Ruiz. Thank you for being here. Thank you, Mr. 
Chairman.
    Last year, I traveled to Puerto Rico and saw firsthand the 
disastrous consequences of Hurricane Irma and Maria, and I left 
the island heartbroken.
    I visited shelters, toured hospitals, and met with 
survivors, doctors, and public officials, and even took care of 
a patient who had a seizure right in front of me. I'm a doctor, 
emergency medicine doctor, and had a seizure in front of me. 
She was at a shelter that was an elementary school turned into 
a shelter.
    And one of their greatest needs was energy in restoration. 
And one of my constituents contacted my office concerned about 
her mother's health and well-being without power if she can't 
store her medications that need to be chilled and all the other 
medical necessities that she had.
    So, to many, having energy was a matter of life and death. 
And it is of the utmost importance, not simply to restore 
energy in the islands, but to build an energy infrastructure 
that can respond to future natural disasters. It doesn't make 
sense to build it vulnerable once again.
    And the other thing that I just really want to note is, 
when I was there, people would say, ``Yes, this community has 
power now,'' but I visited those communities, and I visited 
those clinics. And yes, they might have electricity, but only 
30 percent of what they needed. So only the lobby and one exam 
room had electricity, but they needed full electricity to meet 
the demands of their patients.
    The second thing is that one can say, ``Well we've got them 
back online,'' but if their generators keep breaking and they 
have to wait 1 week or 2 weeks to get them maintained, then 
that's difficult to really be assured that in reality what 
you're telling us that, we've got 95 or plus percent people now 
have power, what does that mean? Because does that mean they 
have 10 percent spotty power that breaks and they need a 
generator that also breaks? Or what does that mean?
    So I think that the goal should be to have full, 
consistent, adequate, and resilient power so that this doesn't 
happen again.
    I'm concerned about some of the more remote areas like 
Vieques and Culebra. Reports indicate that power has only 
recently been restored to a number of smaller outlying areas in 
Puerto Rico, such as Vieques and Culebra. And each day that the 
power was out in these towns carried significant consequences 
for members of these communities, including shuttering hotels 
and other businesses which employed significant number of 
people on the island.
    So I would like to take a few minutes, ask Mr. Alexander: 
According to the grid restoration plans for Vieques and 
Culebra, the Army Corps was to establish generator-powered 
microgrids on the islands by April 10. Did it accomplish that 
goal?
    Mr. Alexander. Sir, the microgrid was commissioned 
yesterday.
    Mr. Ruiz. So it has not----
    Mr. Alexander. Yesterday was 10.
    Mr. Ruiz. OK. So it was commissioned yesterday.
    Mr. Alexander. Yes, sir.
    Mr. Ruiz. All right. Does this mean that everyone on this 
island now has power? No.
    So, when you say ``commissioned,'' what do you mean by 
commissioned?
    Mr. Alexander. It means we have a microgrid in operation 
that is----
    Mr. Ruiz. So everybody on the island has power?
    Mr. Alexander. I can't answer to that right now.
    Mr. Ruiz. OK. And are these microgrids designed to serve as 
a lasting permanent solution for restoring power, or is this a 
temporary measure?
    Mr. Alexander. It's a temporary measure. I think, like all 
generators, they have a certain amount of life in there.
    Mr. Ruiz. OK. All right. So, as I mentioned earlier, the 
Army Corps established the microgrids on Vieques and Culebra. 
However, the Army Corps is now conducting a responsible 
drawdown from the island.
    Mr. Alexander, who will take over the operation and 
maintenance of these microgrids once the Army Corps' drawdown 
is complete, and how will this transition occur?
    Mr. Alexander. Well, our drawdown is associated with the 
end of our mission assignment and the funds associated with it.
    It was recently extended to 18 May.
    Mr. Ruiz. Sir, I'm concerned that these are temporary 
measures and you guys are leaving--you just mentioned you don't 
know if everybody still has power. So who is going to maintain 
these, and how is this transition going to occur?
    Mr. Alexander. Well, the orderly drawdown is ultimately--
PREPA assumes operations, maintenance. They assume the 
restoration of the remaining percentage of service to 
customers.
    Mr. Ruiz. And have they told you they have the capacity to 
do that right now?
    Mr. Alexander. They are part of this Unified Command Group. 
You will have a member of that command group testify in your 
second panel here this afternoon, but that is the plan.
    PREPA dictates the priorities with respect to line 
assignments. And so this transition, it's planned. There should 
not be any gaps.
    Mr. Ruiz. OK. So we haven't fully restored yet, and I hope 
the transition is adequate. So thank you.
    Mr. Harper. The gentleman yields back. We'll let members 
know that votes have been called about 5 minutes ago, but I 
think we will try to conclude here.
    And I'll recognize the gentlewoman from Illinois, Ms. 
Schakowsky, for 5 minutes.
    Ms. Schakowsky. Thank you very much.
    I've been in close touch with the mayor of San Juan who--
and I was watching some clips the other day where FEMA, a woman 
representing FEMA, said that Puerto Rico was a ``good news 
story.'' This was when people were dying, without electricity. 
I do want to talk about electricity. But in general, let me ask 
you, from FEMA, do you think the way things were handled in 
Puerto Rico is a good news story?
    Mr. Byard. Ma'am, what I know is Puerto Rico was devastated 
by a 1-mile per hour under a Category 5 storm.
    The island, all 3,500 square miles of the island was 
impacted by a storm.
    What I can tell you from FEMA's perspective is we were 
there before the storm hit. We moved a tremendous amount of 
resources, tremendous amount of personnel collectively from the 
Department of Defense to the Department of Energy to massive 
amounts of nongovernmental NGOs. All on an island with limited 
air capacity, limited port capacity that had to be sequenced in 
and moved in.
    FEMA traditionally comes in to any State, as we did in 
Texas, in Harvey--and no two disasters are alike--and we 
supplement the local and State efforts.
    In this situation, we quickly had to realize that we were 
the final mile for a long time.
    I think there's a lot of work to do, ma'am, in the books 
not written on the unique opportunity that we have to recover 
Puerto Rico in a more resilient fashion.
    Ms. Schakowsky. Well, I want to try and get a better 
understanding of FEMA and the Army Corps efforts to restore the 
electrical grid on the island.
    Last October, Major General Donald E. Jackson, the Army 
Corp's Deputy Commanding General for Civil and Emergency 
Operations, told the Senate Homeland Security and Government 
Affairs Committees that the Army Corps is responsible for 
restoring Puerto Rico's electric grid to ``pre-storm 
condition.''
    So, Mr. Alexander, can you please elaborate on what pre-
storm condition means and provide us with an update on the Army 
Corps' progress.
    Mr. Alexander. Pre-storm condition would be, in essence, 
what we put it in place, is exactly what the grid was like 
before the storm. And the reality is, as I mentioned earlier, 
that is not in fact the case.
    We have put in place new transmission, distribution lines, 
new towers, new poles, other power generation equipment. It is 
not the resilient grid that we all recognize is needed, but it 
is in much better condition.
    Ms. Schakowsky. So you're saying actually it's better than 
pre-storm condition.
    Mr. Alexander. It's no secret that the grid was in very 
poor condition before the storm hit. It is in much better 
condition today. We are at 96.7 percent. We still have 49,000 
customers without power.
    That number is connected to the meters. Now whether 
residents or businesses inside those dwellings have the 
capability to draw that power or not, I can't speak to that.
    Ms. Schakowsky. OK.
    Mr. Alexander. But that's where we're at. Our mission 
assignment is extended to the 18TH of May. We've got over 500 
contractors remaining under our control. PREPA has an 
additional 800, plus 600 contractors.
    Ms. Schakowsky. So do you think everything will be fully 
restored then by May, that May date?
    Mr. Alexander. Ma'am, we're going to do everything possible 
to get as close to 100 percent as possible.
    This is the most difficult terrain. The production rates 
are going to be hard to estimate. Much of the work has to be 
done by using helicopters and inserting crews and material. So 
you have air control issues there in terms of people working--
--
    Ms. Schakowsky. So, if it's not done, are you out of there, 
anyway?
    Mr. Alexander. Excuse me, ma'am?
    Ms. Schakowsky. If it's not done, are you out of there 
anyway?
    Mr. Alexander. Ma'am, that's probably a narrative that I 
would like to correct. It's not the Corps' decision whether to 
stay or leave. We are there under a FEMA mission assignment.
    Ms. Schakowsky. OK.
    Mr. Alexander. We will stay as long as we have to and we 
have the authority and the resources to do.
    Ms. Schakowsky. No, that was just a question. I don't know. 
I didn't know that. So, it's not----
    Mr. Alexander. We have never unilaterally said, ``We're 
going home on this date,'' and we've done all the deliberate 
planning to properly transition and turn over equipment and 
lines in the event, 18 May does come, and we do depart.
    But 18 May will come, and that means crews will stop work, 
but then there will be an orderly demobilization. Corps 
personnel will still be there, working with, advising, 
consulting with our interagency partners and with PREPA and 
with the Commonwealth government.
    Ms. Schakowsky. OK. My time is expired. Thank you.
    Mr. Harper. The gentlewoman yields back.
    Ms. Schakowsky. I'll submit some more questions for the 
record.
    Mr. Harper. And any questions that are submitted, we would 
ask, in very short order, that you respond to those.
    Seeing there are no further members wishing to ask 
questions, I want to thank each of our witnesses on our first 
panel for being here with us.
    Ms. DeGette. Can I say something for the record?
    Mr. Harper. Certainly. I would now recognize Ranking Member 
DeGette.
    Ms. DeGette. Sorry. I just really want to echo what I had 
said before. We are asking tough questions because we want to 
get the right answers for Puerto Rico, but we really appreciate 
the work all of your agencies are doing. And we saw that when 
we went down and visited. Thanks.
    I want to yield back.
    Mr. Harper. Well said. And I want to thank you for your 
time today.
    It gives us a lot of details to get that update that's so 
important to where we are. So that concludes our first panel. 
We will now set up for the second panel while we go vote and 
come back. And so the subcommittee stands in recess.
    [Recess.]
    Mr. Harper. Our second witness panel for today's hearing 
includes Mr. Carlos Torres, Puerto Rico Power Restoration 
Coordinator and Consultant for Edison Electric Institute; and 
Mr. Gene Shlatz, Director at Navigant Consulting.
    I want to thank both of you for being here. I apologize for 
the delay. Some of this is just outside of our control, but 
thanks for your patience today in joining us.
    And you're aware the committee is holding an investigative 
hearing, and when doing so, we have the practice of taking 
testimony under oath. Do you have any objection to testifying 
under oath?
    The chair then advises you that, under the rules of the 
House and the rules of the committee, you're entitled to be 
accompanied by counsel. Do either of you desire to be 
accompanied by counsel during your testimony today?
    In that case, if you would, I would ask that you please 
rise and raise your right, and then I will swear you in.
    [Witnesses sworn.]
    Mr. Harper. You may be seated. Thank you.
    You're now under oath, and subject to the penalties set 
forth in title 18, section 1001, of the United States Code. 
We're going to allow you to give a 5-minute summary of your 
written statement. And, Mr. Torres, we will recognize you first 
for 5 minutes. The buzzer or the light system in front of you, 
when you've gone 4 minutes, the yellow light will come on. And 
then, at 5, the red light will come on. So thank you very much.
    You may proceed, Mr. Torres.

 TESTIMONY OF CARLOS D. TORRES, POWER RESTORATION COORDINATOR, 
EDISON ELECTRIC INSTITUTE; AND GENE SHLATZ, DIRECTOR, NAVIGANT 
                          CONSULTING.

                 TESTIMONY OF CARLOS D. TORRES

    Mr. Torres. Thank you. Thank you, Chairman Harper, Ranking 
Member DeGette, and the members of the subcommittee.
    Thank you for having me here today. My name is Carlos 
Torres, and I am testifying in my capacity as a Consultant with 
the Edison Electric Institute.
    Since November 17th, I have served as a Power Restoration 
Coordinator in Puerto Rico and as a Member of the Unified 
Command Group. Prior to my position, I worked for more than 30 
years for Consolidated Edison in New York. During my career, 
I've managed emergencies and storm restoration efforts and 
oversaw Con Edison's response to major storms, including Con 
Edison's response to major storm--Superstorm Sandy, Hurricane 
Irene, and emergencies such as the 9/11 attacks, and the 2003 
Northeast blackout. Those events were certainly challenging.
    However, the storm damage caused by Hurricane Maria is 
unlike anything that I or any of us in this industry has ever 
seen on the mainland United States.
    This powerful storm affected 100 percent of the island's 
power generation, almost 90 percent of PREPA's transmission 
facilities, and 80 percent of the distribution system. Without 
a doubt, this power restoration mission has been the most 
challenging of my career.
    Having lived on the island now for more than 5 months, I 
can tell you that the people of Puerto Rico are the most 
resilient that I have ever met in my life. While the resiliency 
is admirable, nobody deserves to be without electricity for 
this long.
    I, and everyone involved in this restoration effort, remain 
committed to work as one team with one mission: restoring power 
safely and as quickly as possible to our fellow citizens in 
Puerto Rico. When I say ``one team, one mission,'' I mean the 
partnership between PREPA, FEMA, DOE, the United States Army 
Corps of Engineers, the contractors, and the many mutual 
assistance crews from the electric companies on the mainland 
who have worked tirelessly to restore power to the people of 
Puerto Rico.
    My written statement goes into more detail about the 
restoration timeline. And we do have photos running on the 
screen to help put in perspective the devastation and to 
provide a sense of the scope of the restoration effort.
    So today marks 202 days since Maria made landfall in Puerto 
Rico. Every meeting that I start in Puerto Rico starts with 
``how many days since the storm hit Puerto Rico,'' and that's 
important because that puts context to the work that we're 
doing.
    As of last night, PREPA reports that 96.67 percent of its 
more than 1.47 million customers who can receive electricity 
have had their power restored. So restoring power to the 
remaining customers, most of whom are in the hardest hit and 
most remote areas, remains challenging and labor- and time-
intensive. As mentioned before in the prior panel, it's 
important to note that one customer equals one electric meter, 
but the meter may serve several people.
    PREPA made its initial ask for mutual assistance from the 
mainland industry on October 31st. I arrived on November 3rd 
with my colleague Manny Miranda, senior vice president of power 
delivery at Florida Power & Light.
    Working closely with the Unified Command, we started to 
formulate a comprehensive massive restoration plan. Given the 
intensive and extensive damage to PREPA's transmission system, 
it was critical that the transmission reestablishment plan and 
the distribution and subtransmission plan be well-coordinated 
to restore power safely to the island.
    Typically, when a storm or an incidence occurs, electric 
companies utilize a mutual assistance process to increase their 
workforce. It is important to remember that crews do not arrive 
automatically. A formal request for mutual assistance must be 
made by the affected electricity provider. The recipient of the 
assistance pays for it. The companies providing the mutual 
assistance are compensated on a not-for-profit basis for 
providing this service. I'll say that again: the companies 
committed to this mutual assistance effort are doing this at 
cost.
    To date, nearly 60 investor-owned electric companies and 
the public power utilities have committed personnel, equipment, 
and materials to the effort. Overall, approximately 3,000 
industry line workers and the support personnel have been 
involved in the restoration effort to the island.
    The challenges that we have encountered during this 
restoration mission are numerous and too detailed in the 5 
minutes that I have, but I am proud to say that the difficulty 
of this work has been met with professionalism and 
determination by the men and women that work day in and day out 
to restore power.
    Every single effort, a point has been reached when a 
substantial amount of work is completed and the type of workers 
needed to complete the job are reassessed. In many cases, more 
people simply does not mean that work gets completed faster. 
This is especially true in Puerto Rico's mountainous regions 
and roads.
    I like to use the analogy that you can only fit so many 
mechanics around an engine of a car. As of today, mutual 
assistance crews have finished their mission and have returned 
to the mainland, and the restoration plans that PREPA and the 
remaining contractors will now converge to the hardest hit 
areas to restore power.
    In closing, the 2017 storm season in general and the 
experience in Puerto Rico specifically has been historic.
    I firmly believe that no one company has done this alone, 
and I am honored and humbled to have been involved as a team 
member in this mission.
    I look forward to your questions.
    [The prepared statement of Mr. Torres follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Mr. Harper. Thank you, Mr. Torres.
    The chair would now recognize you, Mr. Shlatz, for 5 
minutes for the purposes of a summary of your opening 
statement.

                    TESTIMONY OF GENE SHLATZ

    Mr. Shlatz. Thank you, Mr. Chairman.
    Chairman Harper, Ranking Member DeGette, and subcommittee 
members, I appreciate the opportunity to appear before you 
today.
    My name is Gene Shlatz. I'm employed by Navigant 
Consulting, an independent consulting firm headquartered in 
Chicago, Illinois. I work as the director in Navigant's global 
energy practice.
    I have over 35 years' experience addressing challenges that 
are facing the electric utility industry today.
    My testimony supports findings and recommendations 
contained in our December 11th, 2017, report titled ``Build 
Back Better: Reimagining and Strengthening the Power Grid of 
Puerto Rico'' that Navigant and a working group comprised of 
industry experts performed on behalf of the Governors of the 
State of New York and Puerto Rico.
    Our report provides an initial assessment of the electric 
power damage caused by Hurricanes Maria and Irma and proposes 
redesign and rebuild recommendations to strengthen the electric 
grid in Puerto Rico.
    The damage caused by Irma and Maria was extensive and 
affected a substantial portion of Puerto Rico's electric 
generation and power delivery system with an attendant loss of 
electric service to over 1 million customers.
    The magnitude of the devastation, while unprecedented, 
still provides or now provides an opportunity to rebuild and 
transform the system to one that is hardened, smarter, more 
efficient, cleaner, and less dependent on fossil fuels.
    The estimated cost and schedule to rebuild the system and 
achieve this vision is $17.6 billion over a period of 7 to 10 
years.
    Our recommendations, outlined in the report, include the 
use of modern technology and incorporation of lessons learned 
from successful rebuild efforts undertaken in other regions 
following the natural disasters such as Hurricane Sandy in New 
York and New Jersey.
    The rebuild recommendations also align with the Department 
of Energy's recommendations for power system hardening and 
resiliency.
    In short, we recommend that Puerto Rico implement 
resiliency and hardening measures to increase the capability of 
the power grid to withstand future storms.
    These include modernizing the electric grid by using proven 
technologies to better contain outages, reduce recovery times 
and lower operating costs.
    These actions will also enable the system to accommodate 
greater amounts of sustainable and renewable energy resources 
that in turn will reduce reliance on imported fuel.
    In addition to the increased use of renewable energy 
resources, such as wind and solar, we recommend incorporating 
new distributed energy resource technologies, such as energy 
storage and microgrids, to provide greater reliability and 
resiliency. There was significant discussion from panel 1 on 
that topic today, and we certainly support those efforts.
    For example, microgrids would be, we would recommend, 
installing those critical facilities, such as hospitals, water 
treatment facilities, police stations, emergency shelters, and 
remote community most susceptible to sustain interruptions.
    Turning to the transmission and distribution system, the 
T&D lines and substations that deliver power from generating 
stations to Puerto Rico's residences and businesses suffered 
severe damage.
    As most equipment was built 40 or more years ago or longer, 
they were not designed or built to current industry standards 
and, at the time, codes and could not withstand hurricane force 
winds and flooding.
    Consequently, many transmission lines, including critical 
north to south lines traversing mountainous terrain suffered 
catastrophic failure. Electric substation equipment damage was 
extensive as high winds, mudslides and water intruded into 
sensitive equipment.
    Thus, we recommend several short- and long-term design and 
rebuild objectives that should be considered to build back the 
system to current day standards.
    Specifically, the working group in Navigant recommends that 
PREPA's bulk power system should be designed and constructed to 
withstand an upper Category 4 event, meaning 150-mile-an-hour 
winds and heavy flood waters.
    Turning to the generation system, many generating plants 
also encounter significant damage, particularly along 
coastlines where storm surge and high winds resulted in the 
partial or complete loss of output from these stations. Many of 
these generating plants that were damaged were older and less 
efficient than modern generation. The units also mostly burn 
oil and do not meet, to my understanding, current mercury and 
air toxic standards.
    Thus, based on the initial damage assessment, the working 
group also established a set of priorities and recommendations, 
including identifying opportunities to increase the use of 
renewables and distributed resources; shifting fossil fuel 
generation to mostly dual-fuel units with natural gas as a 
primary fuel; reducing the reserve margin by retiring older, 
less-efficient units; and hardening the remaining generating 
facilities that remain in service.
    In closing, transforming and modernizing the Puerto Rico 
electric grid will not be easy. An ongoing commitment by 
affected stakeholders, including State, Commonwealth, and 
Federal agencies is essential to ensure a successful outcome as 
the complexity of rebuilding an island grid requires a 
coordinated and sustained effort to undertake projects that 
collectively may take 10 years or more to complete.
    With that, I thank you for this opportunity to speak to you 
today, and I am prepared to answer any questions you may have.
    [The prepared statement of Mr. Shlatz follows:]

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
    Mr. Harper. Thank you very much.
    Members will now have an opportunity to ask questions of 
you. I'll recognize myself to begin.
    And, Mr. Torres, if I may start with you.
    You certainly have an extensive career and experience in 
emergency management, long time. And your comments about this 
being the most severe certainly goes noticed. But you've 
certainly led recovery efforts following many severe natural 
disasters such as Sandy and others.
    What has made this such a long and difficult recovery? And 
I know geography and terrain presented challenges, but were 
there other factors that contributed or are contributing to the 
challenge?
    Mr. Torres. I think just the sheer fact that it's an 
island, I think is one factor.
    The other factor is getting people, the restoration 
workers, to the island, the logistics that are needed to bring 
the materials and the equipment.
    Also, materials were definitely an issue that I've never 
dealt with, and I think the challenge for the whole Unified 
Command Group and working with the Army Corps of Engineers and 
FEMA to try to secure those materials, having had Harvey, Irma, 
and then the forest fires in California really put a stress on 
the ability to have those materials available.
    So we we worked with our partners to try to secure it and 
get it there as quickly as possible, and they used every means 
possible, using barges to deliver the very heavy equipment 
materials, as well as airfreighting materials as quickly as 
possible.
    Mr. Harper. Right. So many factors that you're discussing, 
but was there anything in particular about PREPA, for example, 
their management practices, system design, or maintenance 
response capabilities that stood out to you as different than 
what you would have encountered elsewhere in the United States?
    Mr. Torres. As I mentioned in my statement, I don't think 
any one company can handle an event of this nature. And when 
Manny and I went down--I'll say we injected ourselves very 
quickly into understanding PREPA's challenges and what their 
capabilities were, and we quickly said: We have to put these 
incident management teams in place. And these IMTs I think 
really served to support PREPA, but it doesn't leave PREPA out 
of it. They are still responsible. And they were part of 
delivering the plan.
    It's their plan. We helped them develop the plan. Again, 
and I'll talk, and in my 30 years in the business, I've never 
seen such an extensive damage to the transmission system. And 
having to build a transmission system, I can say I've done one 
now. But it was a challenge, and a very big learning experience 
for myself, and I'm sure for everybody involved in that whole 
process.
    Mr. Harper. Thank you.
    Mr. Shlatz, you also have extensive experience with 
electric power systems. If you did a similar assessment of the 
grid in, say, Florida, would you expect to find similar 
opportunities for improvement or hardening?
    Mr. Shlatz. Well, my understanding in Florida, many of the 
utilities, for example, Florida Power & Light, have already 
upgraded their system to withstand hurricane force-type winds, 
and I think that may have been proven in the last hurricane. So 
I think there's quite a distinction between the design and 
construction standards that exist today in Puerto Rico versus 
Florida and other States as well.
    Mr. Harper. Obviously some of the issues, such as the 
mountainous terrain, some of these issues would be different, 
but when it comes to things like poles, substations, 
integration of distributed resources, is there a dramatic 
difference in the resiliency of systems outside of Puerto Rico?
    Mr. Shlatz. I think the mere fact that the facilities were 
deteriorated, my understanding is they hadn't been maintained 
perhaps up to industry standards, and the overall condition of 
the equipment was deteriorated. They were older. And so those 
factors, taken together, when you compare them to more the 
modern facilities that you find in the U.S., which perhaps may 
have been built over the past, say, 20 years, that very fact is 
going to underscore some of those differences in terms of the 
reliability of those assets and their ability to withstand 
storms. So I think there are distinct differences between what 
you see typically in the U.S., and there exceptions as you go 
across the country, but States which are most susceptible to 
hurricanes and storms either have recently or intend to upgrade 
their systems. So I think those account for the differences.
    Mr. Harper. Thank you very much, Mr. Shlatz.
    The chair would now recognize ranking member of the 
committee, Ms. DeGette, for 5 minutes.
    Ms. DeGette. Thank you, Mr. Chairman.
    And, Mr. Torres, I want to also thank you for all of the 
work that you've done. It's been really Herculean what you've 
done down there.
    In your written testimony, you say that efforts to restore 
power in Puerto Rico would have been more efficient if there 
had been better damage and equipment assessments, 
prepositioning of crews, access to equipment and materials, and 
investments in grid hardening.
    And you just told the chairman here, part of the problem 
was materials, which you said in your written testimony, and 
also the fact that it's an island, which goes to the 
prepositioning and the other issues.
    Is that right?
    Mr. Torres. Yes, I agree.
    Ms. DeGette. So I know the response effort is underway 
still. But, as I said in my opening statement, hurricane season 
is now less than 2 months ago.
    Do you think any of the lessons that have been learned can 
be implemented in time to be ready for the next hurricane 
season so if we do have some kind of a devastating hurricane, 
we can be prepositioned, we can have better assessments, et 
cetera?
    Mr. Torres. So I would say in terms of materials, we are 
working with PREPA. I know FEMA is looking to replenish the 
stock that they've used during the storm, as well as securing 
stock for the hurricane
    Ms. DeGette. Right. I'm glad they're looking into it. Do 
you think they'll be ready?
    Mr. Torres. I believe they will.
    Ms. DeGette. OK, great.
    Mr. Torres. In terms of materials, yes.
    Ms. DeGette. OK, good.
    Now, we heard from the Army Corps of Engineers that they're 
going to completely draw down by May 18th with the hope of 100 
percent restoration.
    Do you think that we need--but, yet, there's still 50,000 
people who don't have power in some of the most difficult 
areas. Do you think we still need the Army Corps there? Do you 
think May 18th is a reasonable deadline?
    Mr. Torres. I think that you get to a point in the storm 
where you have to right-size the workforce. And I think PREPA 
is positioning themselves to have the resources on the island 
to take over.
    Ms. DeGette. So you think they will likely be able to do 
that?
    Mr. Torres. Yes, I believe so.
    Ms. DeGette. OK. Now, are you helping PREPA to be able to 
take on that increased responsibility?
    Mr. Torres. Yes, we are doing a transition with PREPA; as 
the workforce moves out, the IMTs, we're transitioning with 
them all the work packages so they can finish off the work.
    Ms. DeGette. OK.
    Mr. Torres. So a lot of the engineering----
    Ms. DeGette. So that work is underway?
    Mr. Torres. Yes.
    Ms. DeGette. So I wanted to also ask: You have a lot of 
years of experience working in the energy industry. And so I'm 
sure you understand how a utility's leadership and management 
is so important to its ability to mount and implement an 
effective response effort. And you talked a little bit about 
this before.
    We all know about PREPA's management challenges. Do you 
think those management challenges have been addressed 
sufficiently to allow PREPA to be able to manage the remaining 
response and recovery work once the Corps leaves?
    Mr. Torres. I've only known Walt Higgins for a short while 
since he's been on board and working with the PREPA team. I 
think that they have to meet that challenge. I think that----
    Ms. DeGette. Do you think they can?
    Mr. Torres. I think they're going to be challenged. I think 
they're going to be able to do it, but they're going to be 
challenged, and they're going to work through it.
    Ms. DeGette. Are there risks to utilities or a risk to 
ratepayers if we don't have a strong regulatory structure in 
place to govern the utility?
    Mr. Torres. I think regulations and having a regulatory 
body serves a purpose in terms of ensuring safety----
    Ms. DeGette. OK.
    Mr. Torres [continuing]. Consistency in the standards, so I 
think it's very important to have a----
    Ms. DeGette. OK. Mr. Shlatz, I wanted to commend you on 
your ``Build Back Better'' report.
    Mr. Shlatz. Thank you.
    Ms. DeGette. And I wanted to ask you what the biggest 
implementation challenges to building a modernized electric 
grid are in Puerto Rico?
    Mr. Shlatz. There's a set of challenges, but perhaps the 
overriding challenge is making all this happen. There's a lot 
of work to be done between the transmission and distribution, 
generating facilities, so it's a very big effort.
    Ms. DeGette. Yes.
    Mr. Shlatz. And it's on an island system. So strong 
leadership, strong management, having the materials, crews 
available on a continued basis. We see this happening over a 7- 
to 10-year period so there has to be a sustained and committed 
effort to get this done. A lot of coordination, a lot of 
material procurement, a lot of engineering. So a lot has to 
happen. At the same time, trying to maintain a reliable 
electric system is going to indeed be a challenge.
    Ms. DeGette. And do you think that Puerto Rico is committed 
to meeting that challenge?
    Mr. Shlatz. I'm not sure I'm in a position to opine on 
that.
    Ms. DeGette. OK.
    Mr. Shlatz. That type of organization still needs to be 
structured and assembled. So it's probably premature to comment 
on that yet, but your point is well taken because that needs to 
be in place.
    Ms. DeGette. Right.
    Mr. Shlatz. A very strong organization to be able to manage 
such an effort.
    Ms. DeGette. Thank you.
    Mr. Chairman, this seems like a good place for us to 
continue our regulatory oversight. And I would just propose 
that we do that, and I yield back.
    Mr. Harper. The gentlewoman yields back.
    The chair will now recognize the vice chairman of the 
committee from Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman.
    And thank you, Mr. Chairman and Ranking Member DeGette, for 
rescheduling this hearing. When it had to be canceled earlier, 
I was concerned because this is an important subject that we 
need to keep, as Ms.DeGette just said, we need to keep our 
oversight going so that we can make sure things continue to 
work as well as they have the last few months.
    And I appreciate you, gentlemen, taking your time. We're 
closing in on a quarter of 6. You all probably have been here 
most of the day. We got a little delayed on a couple of things 
this morning, but appreciate you all taking your time to be 
with us this evening.
    Mr. Shlatz, I'm going to ask you, based on the ``Build Back 
Better'' report recommending consideration of microgrids as a 
component of the rebuild effort in Puerto Rico--and in your 
oral testimony here today, you see that as important. As you 
may have heard me in the previous panel, I think microgrids are 
something that we ought to be looking at as a Nation for other 
areas that may have needs or concerns. So, based on your 
experience in the electric sector, what do you see as the 
strengths and the weaknesses of microgrids?
    Mr. Shlatz. Well, clearly the strength is the resiliency it 
provides. Both the electric power system and to the individual 
loads or communities or facilities which are equipped with 
microgrids.
    Probably the biggest challenge or concern is one of cost. 
Microgrids are not inexpensive. It's a very expensive way to be 
able to maintain backup reliability and resiliency to the grid.
    Over time, these costs, while we do expect them to go down, 
but right now costs of microgrid is high. And on a business 
case alone, it is very difficult to structure a business case 
on economics that would justify a microgrid in many situations.
    Mr. Griffith. So how do we, particularly in areas that 
could easily be isolated in a time of a disaster, such as an 
island, but also some mountainous regions or some areas we 
heard testimony about Florida where part of it might be fine 
and the other part being hit by a hurricane, how do we justify 
building in that cost? Because I think it's something that we 
probably need to do, and you mentioned in your oral testimony 
making sure that we had hospitals, police stations, some other 
facilities that were hooked in and had that capability. So what 
are your recommendations on how we can bring that cost down or 
justify to the public the spending of----
    Mr. Shlatz. Well----
    Mr. Griffith [continuing]. Tax dollars?
    Mr. Shlatz. From a justification standpoint, you just named 
the critical facilities, so those facilities where sustained 
power is essential, certainly that. The value of the 
reliability, of the need for reliability is far enhanced in 
that case. So, in that situation, there's a much stronger case 
or justification for a microgrid.
    Over the longer term, the industry envisions microgrids 
providing support to the grid. So, to the extent that, with the 
proper communication and control systems, the microgrids could 
be properly managed, can provide reliability to the system and, 
to some extent, may be able to defer the need for centralized 
facilities--so, to the extent that those microgrids can play a 
role with regard to providing ongoing and firm support to the 
system, that further justifies the economics of a microgrid.
    Mr. Griffith. So kind of like the situation that I 
mentioned previously, where those of us who went down to Puerto 
Rico earlier on a fact-finding mission earlier this year--or 
late last year. We went to a town that at one time had had 
hydropower, but because it was easier to wheel it in from 
somewhere else, that's what they did. But if you had the 
hydropower as part of your mesh or grid, then, in times of 
emergency, they could have it with the supply going to the 
hospital or the school or the police station, and the rest of 
the time, it would just be a part of making the overall grid 
more resilient. Is that what I'm hearing you say?
    Mr. Shlatz. To an extent. I suspect the hydroplants, ones 
which are owned and operated by PREPA, are already part of the 
integrated grid. So, to some extent, very often those 
facilities can be isolated if they're capable of being able to 
supply those locally without tripping offline. They, in effect, 
represent a microgrid, but they also represent part of the 
integrated system. So, incrementally, I wouldn't view that as a 
microgrid. They operate in a microgrid fashion but----
    Mr. Griffith. Yes. But what happened in this case was they 
had just abandoned the hydro. And it struck me. I was like: 
Great, if you had had the hydro, you would have had something. 
Now, you are having to rely on it coming in from miles away and 
over the top of a mountain.
    And that was what I was thinking, that if you had some of 
these smaller systems that were there, yes, they might be a 
part of the overall system in good times, but in bad times, 
they could be a bulwark against disaster.
    Mr. Shlatz. Yes. And, again, going back to my prior 
statement, I'm not entirely sure why the hydroplant was not 
available, maybe----
    Mr. Griffith. I think it was just out of use for a decade 
or so.
    Mr. Shlatz. Right.
    Mr. Griffith. But I was doing the research.
    Mr. Shlatz. But it needs to be connected to the loads. It 
needs to be able to follow the loads.
    Mr. Griffith. Right.
    Mr. Shlatz. In the proper manner. And there may have been 
an absence of adequate lines to be able to deliver that power. 
There may be control system problems, even operator problems.
    Mr. Griffith. OK.
    Mr. Shlatz. So I'm not personally aware of why that unit 
was or was not available, but I would view the hydro unit as 
being part of the integrated grid whereas microgrids typically 
involve smaller generation.
    Mr. Griffith. All right.
    Mr. Shlatz. Typically, 1 megawatt or less, combination of, 
say, diesel, perhaps wind, solar power, more recently, battery 
systems, as part of a contained grid within an area, being able 
to operate on a standalone basis or in parallel with the power 
system.
    Mr. Griffith. And I see that my time is up, but it's been 
very educational.
    And thank you, gentlemen, for your help. And I was hoping 
to give you a chance, Mr. Torres, to weigh in on this, but 
another day.
    Mr. Harper. The gentleman yields back.
    I just have one quick followup, Mr. Torres. Of course, one 
of the main problems here is this is an island. And how do you 
compare Puerto Rico to, say, Hawaii? How would I compare those?
    Mr. Torres. Well, they have definitely different 
challenges. I mean, Puerto Rico is going through--PREPA is 
going through a bankruptcy. It's a different situation. So the 
challenges that they have to deal with, it is not your typical 
storm response. They're dealing with a lot of issues. And 
luckily for them, they have the help of the Federal Government 
to help fund a lot of this restoration work and hopefully the 
recovery, reconstruction, resiliency work.
    Mr. Harper. OK. We may have one other member who would like 
to ask questions.
    Do you have followup?
    Mr. Griffith. I was just going to say, maybe Mr. Torres 
would want to--and he may not, but give him the opportunity to 
maybe talk about microgrids a little bit if he wanted to.
    Mr. Torres. So, in terms of microgrids, I think they're 
very useful. We have used them here at the island. We had up to 
10 of them; now we have 4. They do serve a purpose. But you 
have to still build infrastructure to get to the customers. So, 
be it having a microgrid or having the generation at a power 
plant, you still have to have an infrastructure in place, and 
you have to build it resiliently to be able to withstand those 
hurricane-force winds, floods. So I think microgrids are great 
because you try to centralize. Power quality is also good. But 
you got to manage that as a macro system.
    Mr. Griffith. Thank you very much.
    I yield back.
    Mr. Harper. I'll recognize Ranking Member DeGette for a 
followup question.
    Ms. DeGette. Let me say, we may have some additional 
questions--oh. We may have some additional questions that we'd 
like to submit to you in writing. And if you could get us those 
responses, that would be great.
    Mr. Torres. Absolutely.
    Mr. Harper. Great. Thank you.
    The chair will now recognize the gentleman from Georgia, 
Mr. Carter, for 5 minutes for questions.
    Mr. Carter. Thank you, Mr. Chairman.
    And thank both of you for being here today and for your 
work on this very important subject.
    Mr. Torres, if I could ask you, based on your experience, 
do you feel that PREPA is prepared or understands what it needs 
to do to prepare in advance of future storms? Have we learned 
something from this? Tell me that it's going to be better next 
time.
    Mr. Torres. So I think we've learned, and PREPA has 
learned. I think we still have to sit back and do our after-
action review, and we're going to do it jointly as individuals, 
the companies; PREPA is going to have do their own, and the 
Federal partners are going to do their own. And we have to get 
back together again and look at that.
    I think any experience that you go through is a learning 
experience, and you have to learn from it. I think that they 
are going to be challenged. And I know, as part of the Unified 
Command, we've talked with PREPA as a partner and the need for 
them to bring additional resources to help manage events, to 
manage not just the restoration but more the future with the 
reconstruction and recovery and the resiliency. They are going 
to need resources. They're going to bring additional 
contractors on board to do this reconstruction work. So they're 
going to need a management team that's going to focus on 
safety, on logistics, on the materials, on the engineering. So 
they probably don't have that bandwidth right now, and they're 
going to have to work on that. So in talking----
    Mr. Carter. Have they made any improvements for the next 
time?
    Mr. Torres. I will say yes, that the systems that we've 
been put back--the large portion of their transmission and 
distribution system has been impacted. What we put back, we've 
tried to meet to their specifications.
    Mr. Carter. To their specifications.
    Mr. Torres. Yes.
    Mr. Carter. How do those specifications compare to our 
specifications?
    Mr. Torres. Well, that's something that Bruce Walker spoke 
to in the previous panel, and that's something that they have 
to work on. But in terms of hardening perspective, we look at 
their spec, and we built it to--if it was a wood pole, they 
prefer putting it through their specs to put steel poles or 
concrete poles. And that was what we tried to do when the 
material was available. If the material was not available, in 
order to expedite restoration, we went back with wood. The same 
thing with the wire and the insulators, the whole restoration. 
We tried to put it back. The same thing with the transmission 
system, we put back the ladder structures based on their 
designs, but they have new anchors and new bases, so I think 
that they should be able to withstand another storm. But not to 
say that it will not be impacted. I would be foolish to say 
something like that.
    But I think it's built a little bit better. I think what 
Mr. Shlatz is looking for as part of that--the plan is make it 
even better.
    Mr. Carter. So let me ask you, Mr. Shlatz. Based on your 
work with the ``Build Back Better'' report, what are the 
obvious or the most important priorities for improving the 
resiliency, if you will, of the electrical infrastructure in 
Puerto Rico?
    Mr. Shlatz. Well, both the transmission and distribution 
system were heavily impacted. But the resilience of the island 
is dependent first upon the bulk system, which is the power 
generating plants and the transmission lines that deliver it 
ultimately to the distribution lines and to the customers.
    To the extent that the transmission system, although being 
rebuilt well, may still be quite susceptible to hurricane 
damage in the future. So I would say a primary item right now 
is focusing on that transmission grid, ensuring that it's up to 
current standards. And we do recommend rebuilding it to 
withstand a Category 4 hurricane. So that, in my view, would be 
one of the higher priorities.
    Mr. Carter. So, if it were your system, that's what you 
would do?
    Mr. Shlatz. That's what I would do.
    Mr. Carter. OK. Anything else?
    Mr. Shlatz. Well, along with that, we are looking at damage 
that was done across the entire system, so identifying critical 
load centers. We had talked about a backup system, microgrids 
to critical facilities, at the same time ensuring that the 
lines serving those critical facilities, such as water 
treatment facilities, hospitals, police stations, that the 
power lines serving those particular loads, are certainly quite 
reliable, built well, and most likely to withstand damage in a 
future storm. So I would prioritize based on criticality of 
load as well as in addition to ensuring that the bulk system is 
intact and robust.
    Mr. Carter. OK. One last question. When will the island be 
100 percent again?
    Mr. Shlatz. I'm not in a position to answer that. I'm not 
familiar with the day-to-day activities.
    Mr. Carter. Mr. Torres, do you have any idea?
    Mr. Torres. This being the most difficult work--the terrain 
is really kind of treacherous. The very narrow roads and the 
equipment that's needed to put the lines back up and the poles 
in, it needs helicopter work; it's very hard. And I equate it 
to----
    Mr. Carter. Is that an ``I don't know''?
    Mr. Torres. Well, it's going to take time, and I can't 
really tell you.
    Mr. Carter. OK. Fair enough.
    Fair enough.
    OK. My time's up.
    Thank you very much, both of you.
    And I yield back.
    Mr. Harper. The gentleman yields back.
    I want to thank both of you for being patient today, for 
being here. And, remember, too, that both staffs, this is 
critical for them to help us, and this process of your being 
here accomplishes a lot. And we commend both of you for the 
great work and the effort to help us as we go forward.
    I anticipate that you will get a number of written 
questions. And so members are advised that they have 10 
business days to submit questions for the record. And if that 
happens, I would ask you to respond as quickly as possible.
    With that, the subcommittee is adjourned.
    [Whereupon, at 5:56 p.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    

                                 [all]


</pre></body></html>
